TIGTA SEMIANNUAL REPORT TO CONGRESS




                                      October 1, 2011 – March 31, 2012   3
     TIGTA SEMIANNUAL REPORT TO CONGRESS



       Inspector General’s
       Message to Congress
It gives me great pleasure to submit this Semiannual Report
to Congress summarizing the accomplishments of the
Treasury Inspector General for Tax Administration (TIGTA)
for the reporting period of October 1, 2011 to March 31, 2012.
This report highlights the most notable audits, investigations,
and inspections and evaluations performed by TIGTA, as we
continue to work diligently to provide oversight of the Internal
Revenue Service (IRS) and protect the integrity of Federal tax
administration.

In 1998, Congress created TIGTA to ensure that our Nation’s tax system is effectively,
efficiently, and fairly administered, and that the IRS is held to a high level of accountability.
The Inspector General Act of 1978, as amended, requires that we submit this report
summarizing our independent audit and investigative oversight of tax administration,
including IRS activities, systems, and operations. I remain dedicated to upholding this
important mission.

TIGTA has recovered, protected, and identified monetary benefits totaling $313 million for
this reporting period. Over the past six months, our Office of Audit (OA) has completed 34
audits, and the Office of Investigations (OI) has opened 1,696 investigations and has
closed 1,632 investigations. During the reporting period, TIGTA’s Office of Chief Counsel
reviewed 266 existing or proposed laws and regulations and, as appropriate, made
recommendations concerning their impact on tax administration.

The current state of the U.S. economy and the watchful eye of the American public on
the management of our Nation’s Government are driving the need now more than ever
for the IRS to efficiently and effectively collect taxes owed to the Federal Government.
TIGTA remains steadfast in its oversight of the IRS, promoting effectiveness and
efficiency in funding our Nation’s Government at the highest level of quality and service
to the American taxpayer.

TIGTA sees the security of the Federal system of tax administration as the IRS’s top
management challenge for Fiscal Year (FY) 2012. As our Nation’s tax collector and
administrator of the Internal Revenue Code, the IRS received more than 230 million tax
returns, of which 141 million were from individual taxpayers, and collected more than
$2.3 trillion in revenue in 2010. Information from these tax returns is converted into
electronic format, processed, and maintained in over 190 different computer system
applications used by IRS employees. As computer use continues to be inextricably
integrated into the IRS’s core business processes, effective information systems’
security becomes essential to ensure that data are protected against inadvertent or
deliberate misuse, improper disclosure, or destruction, and that computer operations
supporting tax administration are secured against disruption or compromise.


                                                          October 1, 2011 – March 31, 2012     3
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS


    As I testified before the Committee on Oversight and Government Reform, Subcommittee
    on Government Organization, Efficiency and Financial Management in November, identity
    theft continues to be a significant problem for taxpayers and the IRS. Identity thieves are
    filing fraudulent tax returns and obtaining refunds. The IRS usually does not become
    aware of a problem until after the legitimate taxpayer files a return. At that point, the IRS
    often determines that two tax returns have been filed using the same name and Social
    Security Number (SSN). The legitimate taxpayer’s refund is then delayed while the IRS
    attempts to identify the legitimate taxpayer. Meanwhile, the identity thief has obtained a
    fraudulent tax refund, which the IRS is unlikely to recover. As such, the effective
    authentication of legitimate taxpayers is a pressing challenge for the IRS as it develops
    and implements updates to its mission-critical systems and processes.

    In addition, implementation of major tax law changes, including the Affordable Care Act
    (ACA), continues to present challenges as the IRS grapples with the full complexity of
    these laws. I testified later that month to the same subcommittee about the IRS’s
    implementation of the small business provisions of the ACA. TIGTA will continue to
    monitor the IRS’s implementation of significant provisions in the ACA and will promptly
    alert Congress and the IRS of any problems or emerging issues.

    Another major challenge for the IRS is tax compliance. Despite an estimated voluntary
    compliance rate of 83 percent and IRS enforcement efforts, a significant amount of
    income remains unreported and unpaid. In January 2012, the IRS estimated the gross
    Tax Gap for Tax Year (TY) 2006 to be $450 billion. The IRS continues to need broader
    strategies and more research to determine which actions are most effective to curtail
    the Tax Gap, which is defined as the difference between the estimated amount
    taxpayers owe and the amount they voluntarily and timely pay for a tax year.

    The IRS is strengthening its international enforcement efforts for businesses and
    individuals. TIGTA and the State Department are working together to make TIGTA’s
    Complaint Hotline information available on over 270 embassy, consulate, and other
    State Department web pages around the globe. Resources for a more comprehensive
    approach are limited, but TIGTA is also striving to strategically expand its oversight
    model in the international environment through a coordinated program of international
    audits, inspections, law enforcement liaison, and outreach.

    In submitting this report, I want to acknowledge the extraordinary efforts of the IRS and
    of our auditors, investigators, evaluators, attorneys, professionals, and support
    personnel who work tirelessly to ensure that our Nation’s tax system is efficient,
    effective, and fair.

                                            Sincerely,




                                        J. Russell George
                                        Inspector General


4   October 1, 2011 – March 31, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS



                                          Table of Contents
Inspector General’s Message to Congress ................................................................                                  3

TIGTA’s Profile .................................................................................................................         7
        Statutory Mandate ......................................................................................................          7
        Organizational Structure .............................................................................................            8
        Authorities ...................................................................................................................   8

TIGTA’s Highlights ..........................................................................................................             9

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .... 13
        Security for Taxpayer Data and Employees ................................................................                         13
        Tax Compliance Initiatives ..........................................................................................             15
        Implementing Major Tax Law Changes .......................................................................                        20
        Providing Quality Taxpayer Service Operations ..........................................................                          21
        Human Capital ............................................................................................................        22
        Taxpayer Protection and Rights ..................................................................................                 23
        Achieving Program Efficiencies and Cost Savings ......................................................                            24

Protect the Integrity of Tax Administration ............................................................... 27
        Threats Against IRS Employees and Facilities ............................................................                         29
        Theft of Sensitive Taxpayer Information and Identity Fraud ........................................                               30
        Employee Integrity Investigations ................................................................................                32
        Employee and Infrastructure Security .........................................................................                    34
        External Attempts to Corrupt Tax Administration .........................................................                         36

Advancing Oversight of America’s Tax System ....................................................... 43

TIGTA’s International Programs .................................................................................. 47

American Recovery and Reinvestment Act of 2009 ................................................. 51

An Organization That Values Its People ..................................................................... 53

Congressional Testimony ............................................................................................. 59

Audit Statistical Reports ................................................................................................ 63
        Reports With Questioned Costs .................................................................................. 63
        Reports With Recommendations That Funds Be Put to Better Use ............................. 64
        Reports With Additional Quantifiable Impact on Tax Administration ............................ 65

Investigations Statistical Reports ................................................................................ 67
        Significant Investigative Achievements .......................................................................                    67
        Status of Closed Criminal Investigations .....................................................................                    68
        Criminal Dispositions ..................................................................................................          68
        Administrative Dispositions on Closed TIGTA Investigations ......................................                                 68




                                                                                       October 1, 2011 – March 31, 2012                        5
                                                           TIGTA SEMIANNUAL REPORT TO CONGRESS



    Ap p e n d i c e s
    Appendix I – Statistical Reports – Other .................................................................... 69
           Audit Reports With Significant Unimplemented Corrective Actions ............................. 69
           Other Statistical Reports ............................................................................................. 78

    Appendix II – Audit Products ........................................................................................ 79

    Appendix III – TIGTA’s Statutory Reporting Requirements .................................... 81

    Appendix IV – Section 1203 Standards ...................................................................... 87

    Appendix V – Implementing Section 989C of the Dodd-Frank Wall Street Reform
    and Consumer Protection Act ...................................................................................... 89

    Appendix VI – Data Tables Provided by the Internal Revenue Service ............... 91
           Internal Revenue Service Memorandum .....................................................................             91
           Report of Employee Misconduct, Summary by Disposition Groups .............................                            92
           Report of Employee Misconduct, National Summary ..................................................                    93
           Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ...............                                 94

    Glossary of Acronyms ................................................................................................... 95




6   October 1, 2011 – March 31, 2012
       TIGTA SEMIANNUAL REPORT TO CONGRESS



                               TIGTA’s Profile


T
         IGTA provides independent oversight of the
         Department of the Treasury’s matters
         involving IRS activities, the IRS Oversight                Statutory Mandate
         Board, and the IRS Office of Chief Counsel.
         Although TIGTA is placed organizationally
within the Department of the Treasury and reports to         •   Protect against external
the Secretary of the Treasury and to Congress, it                attempts to corrupt or threaten
functions independently from all other offices and               IRS employees.
bureaus within the Department.                               •   Provide policy direction and
                                                                 conduct, supervise, and
                                                                 coordinate audits and
TIGTA is devoted to all aspects of activity related to           investigations related to IRS
the Federal tax system as administered by the IRS.               programs and operations.
TIGTA protects the public’s confidence in the tax            •   Review existing and proposed
system by identifying and addressing the IRS’s                   legislation and regulations
management challenges and implementing the                       related to IRS programs and
priorities of the Administration and the Department of           operations, and make
the Treasury.                                                    recommendations concerning
                                                                 the impact of such legislation or
TIGTA’s organizational structure is comprised of the             regulations.
Office of the Inspector General and five functional          •   Promote economy and
offices: the Office of Investigations; the Office of             efficiency in the administration
Audit; the Office of Inspections and Evaluations; the            of tax laws.
                                                             •   Prevent and detect waste,
Office of Mission Support; and the Office of Chief
                                                                 fraud, and abuse in IRS
Counsel (see chart on page 8).                                   programs and operations.
                                                             •   Inform the Secretary of the
TIGTA conducts audits, inspections and evaluations,              Treasury and Congress of
and investigations designed to:                                  problems and deficiencies
                                                                 identified and of the progress
   •    Promote the economy, efficiency, and                     made in resolving them.
        effectiveness of tax administration; and
   •    Protect the integrity of tax administration.




                                                         October 1, 2011 – March 31, 2012     7
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS



                             Organizational Structure

                                                 Inspector General

                                                  Principal Deputy
                                                 Inspector General




                                                      Deputy
        Deputy                 Deputy                Inspector               Associate               Chief
       Inspector              Inspector             General for               Inspector             Counsel
      General for            General for            Inspections              General for
    Investigations              Audit                   and                    Mission
                                                    Evaluations                Support




                                             Authorities
      TIGTA derives its authority from the Inspector General Act of 1978, as amended. 1
      TIGTA has access to returns and return information in the performance of its tax
      administration responsibilities. TIGTA must also report potential Federal criminal
      violations directly to the U.S. Attorney General. TIGTA and the Commissioner of the
      IRS have established policies and procedures delineating responsibilities to investigate
      potential criminal offenses under Internal Revenue laws. In addition, the Internal
      Revenue Service Restructuring and Reform Act of 1998 (RRA 98) 2 amended the
      Inspector General Act of 1978 to give TIGTA the statutory authority to carry firearms,
      execute and serve search and arrest warrants, serve subpoenas and summonses, and
      make arrests as set forth in Internal Revenue Code (I.R.C.) Section (§) 7608(b)(2).




      1
       5 U.S.C. app. 3 (amended 2008).
      2
       Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C.
      app., 16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).



8     October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS



                              TIGTA’s Highlights
Examples of High-Profile Cases by the Office of
Investigations:
New York Man Sentenced for Internet Fraud Scheme

On December 19, 2011, in Brooklyn, New York, Godspower Egbufor was sentenced to
108 months of imprisonment and five years of supervised release for aggravated
identity theft and conspiracy to commit wire fraud. In addition, he was ordered to pay
$1,741,822 in restitution and a $200 assessment. 3

According to court documents, Egbufor, together with co-conspirators, operated a
scheme to steal the identities of numerous individuals and to defraud them out of more
than $1 million through Internet solicitations. 4

Egbufor and his co-conspirators obtained massive e-mail distribution lists containing
thousands of e-mail addresses and sent unsolicited e-mails falsely informing targeted
victims that they had won a lottery or had inherited money from a distant relative.
Follow-up e-mails instructed the victims that they were required to provide personal and
bank account information in order to receive their lottery winnings or inheritance. Using
this information, Egbufor and his co-conspirators stole the identities of some of the
victims to facilitate the scheme. 5

Subsequent e-mails to victims falsely indicated that a Government or quasi-governmental
agency, such as the IRS 6 or the United Nations, prevented the money from being
awarded to them because advance payment of taxes and other fees were required.
Victims were solicited to wire the money necessary to pay the taxes and other fees to
designated bank accounts controlled by Egbufor and his co-conspirators. 7

When victims indicated that they lacked the money to pay the taxes and fees, they were
informed that Egbufor and his co-conspirators would loan them the money. Victims
were then convinced to open online bank accounts and provide the necessary login
information to the conspirators. Using this information, these conspirators stole money
from various bank accounts, transferred that stolen money to the victims’ accounts, and
instructed the victims to wire the money to bank accounts outside the United States
controlled by Egbufor and his co-conspirators. The victims never received any lottery
winnings, inheritance, or other money in connection with the scheme. 8


3
  E.D.N.Y. Judgment filed Dec. 27, 2011.
4
  E.D.N.Y. Gov. Letter filed Dec. 19, 2011.
5
  E.D.N.Y. Superseding Ind. filed May 10, 2011; E.D.N.Y. Gov. Letter filed Dec. 19, 2011.
6
  Id.
7
  Id.
8
  Id.



                                                                 October 1, 2011 – March 31, 2012   9
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS


     Fugitive Convicted of Conspiracy to Obstruct Justice

     On February 14, 2012, in Tampa, Florida, a Federal jury found Larry M. Myers guilty of
     conspiracy to mail threatening communications to intimidate and impede jurors and
     judicial personnel in the discharge of their lawful responsibilities and to obstruct justice;
     conspiracy to use threats and intimidation to prevent officers of the United States from
     carrying out their official duties; mailing threatening communications with the intent to
     extort a thing of value; and obstruction of justice. 9

     In March 1996, Myers was indicted along with 10 other individuals. He remained a
     fugitive for the past 15 years. On August 19, 2011, Myers was arrested. 10

     According to the indictment, Myers and his co-conspirators were members of “The
     Constitutional Court of We The People In and For The United States of America” also
     known as the “Constitutional Common Law Court” (CLC); also known as “The Supreme
     Court of the Constitutional Court of We the People – In and For the united [sic] States of
     America”, which was a pseudo judicial, non-governmental and unofficial enterprise,
     created and established in 1992 in Tampa, Florida. 11

     CLC ideology advocated that there are two separate classes of citizens within the
     United States. The doctrine held that the “superior class,” referred to as “sovereigns” or
     “preamble citizens,” consisted of individuals who claimed to be the direct descendants
     and heirs of the “Founding Fathers.” Consequently, as members of the “sovereign”
     class, they believed that they were above the laws of the United States. In addition,
     they believed that an “inferior class” of citizens existed and was comprised of people
     who pay Federal income taxes, participate in Social Security programs, and accept
     “privileges and immunities” from the Government under the Fourteenth Amendment to
     the Constitution. 12

     In conjunction with his co-conspirators, Myers established “The Constitutional Common
     Law Militia” (militia) to act as the “Supreme Law Enforcement Authority” of the CLC.
     This militia was entrusted by the CLC to execute its “arrest warrants,” and to enforce its
     judicial “orders.” Militia members were, in most cases, participants in or “members” of
     the CLC. 13

     Myers mailed a CLC arrest warrant to a State Chief Judge in Florida. He also issued a
     CLC contempt of court order and “militia” arrest warrant to a Federal District Judge. By
     use of force and threatening communications, Myers and his co-conspirators attempted
     to influence, intimidate, obstruct, and impede jurors and officers of the Courts of the



     9
       M.D. Fla. Jury Verdict filed Feb. 14, 2012.
     10
        M.D. Fla. Arrest Warrant Ret. Exec. filed Aug. 23, 2011.
     11
        M.D. Fla. Indict. filed Mar. 15, 1996.
     12
        Id.
     13
        Id.



10   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS


United States. They also endeavored to intimidate a jury panel with a CLC “contempt of
court order” in which they threatened arrest by “militia” for alleged acts of treason. 14

In order to obtain favorable rulings in criminal cases, dismissals of indictments,
reversals of convictions, and the release from incarceration of individuals who had been
lawfully convicted in accordance with State and Federal law, Myers and his co-
conspirators engaged in this conspiracy. 15

Sentencing for this matter is scheduled for May 14, 2012. 16

Example of a High-Profile Report by the Office of
Audit:
More Tax Return Preparers Are Filing Electronically, but Better Controls Are
Needed to Ensure All Are Complying With the New Preparer Regulations

Every year, more than one half of all taxpayers pay someone else to prepare their
Federal income tax returns. During the 2011 Filing Season, the IRS processed
approximately 66.9 million individual Federal income tax returns prepared by paid tax
return preparers; 90 percent of these returns were electronically filed (e-filed).

The e-file mandate is helping the IRS with its goal to electronically receive 80 percent of
individual tax returns by Calendar Year (CY) 2012. As of June 9, 2011, more than 79
percent of tax returns had been e-filed in CY 2011. However, the continued use of
multiple preparer identification numbers makes it difficult to match all tax returns to the
preparers.

For the first few years, the IRS plans to use a “soft” approach to enforcement with
emphasis on educating and collaborating with preparers in implementing e-file
requirements. However, improvements are underway to ensure that controls and
system validations for the preparer registration process are effective.

TIGTA made several recommendations and IRS management agreed with them all,
stating that corrective actions have been taken or are planned.
Reference No. 2012-40-010




14
   M.D. Fla. Indict. filed Mar. 15, 1996.
15
   Id.
16
   M.D. Fla. Sentencing Notice filed Feb. 15, 2012.



                                                        October 1, 2011 – March 31, 2012      11
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




12   October 1, 2011 – March 31, 2012
       TIGTA SEMIANNUAL REPORT TO CONGRESS



       Promote the Economy, Efficiency, and
        Effectiveness of Tax Administration

T
     IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and
     effectiveness of tax administration. TIGTA provides recommendations to improve
     IRS systems and operations and to ensure the fair and equitable treatment of
     taxpayers. TIGTA’s comprehensive and independent performance and financial
audits of IRS programs and operations primarily address statutorily mandated reviews
and high-risk challenges the IRS faces.

The IRS’s implementation of audit recommendations results in:

   •    Cost savings;
   •    Increased or protected revenue;
   •    Protection of taxpayers’ rights and entitlements; and
   •    More efficient use of resources.

Each year, TIGTA identifies and addresses the IRS’s major management and
performance challenges. OA places audit emphasis on statutory coverage required by
RRA 98 and other laws, as well as areas of concern to Congress, the Secretary of the
Treasury, the Commissioner of the IRS, and other key stakeholders.



        Audit Emphasis Areas for October 2011 Through March 2012

           •    Security for Taxpayer Data and Employees
           •    Tax Compliance Initiatives
           •    Implementing Major Tax Law Changes
           •    Providing Quality Taxpayer Service Operations
           •    Human Capital
           •    Taxpayer Protection and Rights
           •    Achieving Program Efficiencies and Cost Savings




The following summaries highlight significant audits completed in each area of
emphasis during this six-month reporting period:

Security for Taxpayer Data and Employees

As computer use continues to be inextricably integrated into the IRS’s core business
processes, effective information systems’ security becomes essential to ensure that data



                                                        October 1, 2011 – March 31, 2012   13
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


     are protected against inadvertent or deliberate misuse, improper disclosure, or
     destruction, and that computer operations supporting tax administration are secured
     against disruption or compromise.

     The Computer Security Incident Response Center Is Effectively Performing Most
     of Its Responsibilities, but Further Improvements Are Needed

     The Computer Security Incident Response Center (CSIRC) is responsible for monitoring
     the IRS’s network 24 hours a day, every day for cyberattacks and computer
     vulnerabilities, and for responding to various computer security incidents such as the
     theft of a laptop computer. Taxpayers are impacted by network disruptions which
     prevent the IRS from performing vital taxpayer services such as processing tax returns,
     issuing refunds, and answering taxpayer inquires.

     The CSIRC is effectively performing most of its responsibilities for preventing, detecting,
     and responding to computer security incidents. However, further improvements could
     be made. The CSIRC’s host-based intrusion detection system is not monitoring 34
     percent of IRS servers, leaving the IRS network and data at risk. In addition, the CSIRC
     is not reporting all computer security incidents to the Department of the Treasury, as
     required. Finally, incident response policies, plans, and procedures are either
     nonexistent or inaccurate and incomplete.

     As a result, TIGTA recommended that the IRS:

         •   Develop its Cybersecurity Data Warehouse capability to correlate and reconcile
             active servers connected to the IRS network with servers monitored by the host-
             based intrusion detection system;
         •   Revise and expand its Memorandum of Understanding with TIGTA’s OI to ensure
             that all reportable and relevant security incidents are shared with the CSIRC;
         •   Collaborate with TIGTA’s OI to create common identifiers to help the CSIRC
             reconcile its incident tracking system with TIGTA’s OI incident system;
         •   Develop a standalone incident response policy or update the policy in the IRS’s
             Internal Revenue Manual with current and complete information;
         •   Develop an incident response plan; and
         •   Develop, update, and formalize all critical standard operating procedures.

     IRS management agreed with these recommendations and stated that they plan to take
     corrective actions for most of them. Although IRS management agreed with the
     recommendation to correlate and reconcile active servers connected to the IRS’s
     network with servers monitored by the host-based intrusion detection system, their
     proposed corrective actions do not address TIGTA’s recommendation.
     Reference No. 2012-20-019




14   October 1, 2011 – March 31, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



Tax Compliance Initiatives
Tax compliance initiatives include the administration of tax regulations, collection of the
correct amount of tax from businesses and individuals, and oversight of tax-exempt and
Government entities. Increasing voluntary taxpayer compliance and reducing the Tax
Gap 17 remain the focus of many IRS initiatives. Nevertheless, the IRS faces significant
challenges in obtaining complete and timely compliance data and developing the
methods necessary to interpret those data. Even with improved data collection, the IRS
needs to develop broader strategies and conduct more research to determine which
actions are most effective to address taxpayer noncompliance.

Opportunities Exist to Identify More Taxpayers Who Underreport Retirement
Income

Due to the amount and volume of tax assessments made, the Automated Underreporter
(AUR) Program is one of the IRS’s more successful compliance programs in increasing
taxpayer awareness and contributing to the reduction of the Tax Gap. Given the
magnitude of underreporting, even small improvements in the IRS’s examination of tax
returns with retirement income could increase taxpayer compliance and generate
substantial revenue to the Federal Government to reduce the Tax Gap.

For Tax Years (TY) 2008 and 2009, the IRS Statistics of Income Program reported that
taxpayers filed approximately 21 million tax returns with taxable Individual Retirement
Arrangement (IRA) income totaling $293 billion and approximately 52.2 million tax
returns with taxable pension income totaling $1 trillion.

TIGTA determined that the AUR Program is effectively determining the proper reporting
of retirement income when Form1099-R, Distributions From Pensions, Annuities,
Retirement or Profit-Sharing Plans, IRAs, Insurance Contracts, etc., discloses the
taxable amount of the retirement distribution. For example, for TY 2007, AUR Program
examiners made tax assessments totaling approximately $607.5 million for 217,811 tax
returns. However, additional tax form information, if available, would improve
compliance.

TIGTA recommended that the IRS:

     •    Revise Form 1099-R to clarify the meaning of the “Taxable amount not
          determined” box in order to reduce taxpayer confusion and include the dates
          needed to identify retirement savings program distributions and transfers not
          rolled over within 60 days, as required; and
     •    Establish procedures to transcribe additional lines from various tax forms.




17
  The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely pay for a tax year.



                                                             October 1, 2011 – March 31, 2012        15
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS


     IRS management agreed with these recommendations and stated that they plan to take
     corrective actions.
     Reference No. 2012-30-011

     Criminal Investigation Can Take Steps to Strengthen Oversight of Its Undercover
     Operations

     Criminal Investigation (CI) uses undercover operations as an essential technique to
     detect and investigate criminal activity involving tax and money laundering offenses.
     TIGTA determined that weaknesses in the controls over undercover operations still
     exist. Given the risks associated with undercover operations, stronger oversight helps
     to ensure that undercover operations are properly managed and meet operational
     objectives, and that Federal tax dollars are used in the most efficient manner to ensure
     the public’s confidence in CI’s investigative techniques.

     CI took steps to strengthen controls over its undercover operations in response to
     TIGTA’s Fiscal Year (FY) 2002 review. However, TIGTA identified repeat findings and
     determined that internal control weaknesses continue to exist because corrective
     actions were not implemented sufficiently. In addition, some questionable undercover
     expenditures did not have documentation indicating that they had been preapproved.

     Although CI’s undercover agents stated that their training was sufficient and safety was
     emphasized, TIGTA believes that additional steps could be taken to protect the identity
     of undercover agents. TIGTA also determined that financial reviews of undercover
     operations that earned income were not conducted timely.

     TIGTA recommended that the IRS:

           •   Modify existing guidance to include specific criteria regarding when operational
               and financial reviews are required;
           •   Develop a process to alert CI officials when operational and financial reviews are
               due;
           •   Strengthen controls to ensure that expenditures are properly and timely approved
               and documented;
           •   Strengthen procedures to protect the identity of undercover agents; and
           •   Ensure that the financial reviews of undercover operations with churning 18
               authority are requested within 90 calendar days after the undercover operation
               portion of the investigation is concluded.

     IRS management agreed with these recommendations and stated that they plan to take
     corrective actions.
     Reference No. 2012-30-014



     18
          Churning is defined as undercover operations which earn income.




16   October 1, 2011 – March 31, 2012
       TIGTA SEMIANNUAL REPORT TO CONGRESS


Actions Can Be Taken to Reinforce the Importance of Recognizing and
Investigating Fraud Indicators During Field Audits

Penalties, such as for civil fraud, are designed to promote voluntary compliance by
imposing an economic cost on taxpayers who choose not to comply with tax laws.
Because the IRS did not always recognize or properly address indicators of fraud, the
IRS may have been missing opportunities to further promote voluntary compliance and
enhance revenue for the Department of the Treasury.

TIGTA’s review of a statistical sample of 116 field audits closed between July 2009 and
June 2010, found 26 audits with fraud indicators that the IRS did not recognize and
investigate in accordance with some key IRS procedures and guidelines. Each of the
field audits involved unreported income and/or overstated expenses that resulted in
taxpayers agreeing that they each owed additional taxes of at least $10,000. TIGTA’s
evaluation indicated that a combination of factors caused the quality problems and that
actions can be taken at both the examiner and first-line manager levels to better ensure
that fraud indicators are recognized and properly investigated.

As a result, TIGTA recommended that the IRS:

   •    Enhance the job aid examiners use to better assist examiners with recognizing,
        investigating, and documenting fraud indicators in case files; and
   •    Provide specific examples in the Internal Revenue Manual for examiners and
        first-line managers to use when considering whether it would be beneficial to
        involve the IRS’s fraud technical advisors when there are indications of fraud.

IRS management did not agree with the first recommendation. They indicated that the
job aid was significantly enhanced in March 2011. In addition, IRS management did not
agree with the second recommendation, but they do plan to take alternative corrective
action. IRS management stated that they will issue a memorandum to all examination
employees emphasizing the importance of involving the fraud technical advisors in
audits.

TIGTA evaluated the enhanced job aid examiners use and continues to believe that
further enhancements would be beneficial. TIGTA also considered the alternative
corrective action that IRS management plans to take and concluded that it is responsive
to the recommendation. However, TIGTA encourages IRS management to go beyond
merely reiterating existing procedures in their memorandum by providing additional
instructions and guidance to clarify when the assistance of a fraud technical advisor
should be sought.
Reference No. 2012-30-030




                                                       October 1, 2011 – March 31, 2012    17
                                                TIGTA SEMIANNUAL REPORT TO CONGRESS


     Appropriate Actions Were Taken to Identify Thousands of Organizations Whose
     Tax-Exempt Status Had Been Automatically Revoked, but Improvements Are
     Needed

     The Pension Protection Act of 2006 19 requires the IRS to maintain a list of organizations
     whose tax-exempt status had been automatically revoked for failing to file a return or
     notice for three consecutive years. The Exempt Organizations’ function educated tax-
     exempt organizations on the requirements of the Act and identified and informed certain
     organizations that their tax-exempt status had been automatically revoked. However, it
     did not identify all organizations that should have been informed about their revocations
     and did not clearly inform organizations on how to regain their tax-exempt status if they
     were still operating.

     The IRS performed extensive outreach and took actions to prepare for automatic
     revocations and, on June 8, 2011, informed more than 279,500 organizations that their
     tax-exempt status had been automatically revoked. In most cases, the IRS
     appropriately identified organizations that did not file a return or notice for three
     consecutive years. However, TIGTA determined that programming changes were
     incomplete and did not identify potentially more than 15,000 organizations that failed to
     file for three consecutive years. As a result, these organizations were not informed that
     their tax-exempt status had been automatically revoked.

     TIGTA identified improvements that were needed to:

                •   Provide better guidance to organizations that had their tax-exempt status
                    automatically revoked; and
                •   Ensure that accurate information is posted to the IRS’s taxpayer database.

     Throughout the review, TIGTA raised a number of issues and the IRS took actions to
     address them. Specifically, programming issues were corrected to ensure that:

            •   Organizations that had their tax-exempt status automatically revoked were
                identified;
            •   Guidance provided on an IRS website was updated; and
            •   Changes were made to an electronic filing website to reduce inaccurate address
                updates.

     In addition, TIGTA recommended that the IRS:

           •    Make programming changes to more accurately identify organizations that did
                not file for three consecutive years;
           •    Offer more detailed guidance in the revocation notice; and
           •    Make programming changes to ensure that accurate information is posted on the
                accounts of tax-exempt organizations that have terminated operations.

     19
          Pub. L. No. 109-280, 120 Stat. 780.



18   October 1, 2011 – March 31, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS


IRS management agreed with these recommendations and have already taken
corrective actions.
Reference No. 2012-10-027

Interim Results of the 2012 Filing Season

The filing season 20 is critical for the IRS because it is during this time that most
individuals file their income tax returns and contact the IRS if they have questions about
specific tax laws or filing procedures.

As of March 3, 2012, the IRS had received nearly 63 million tax returns: 57 million (90
percent) were e-filed and nearly 6.3 million (10 percent) were filed on paper. The IRS
has issued nearly 52.4 million tax refunds totaling approximately $157.6 billion.
Taxpayers who e-filed their tax returns early in the 2012 Filing Season experienced
delays in receiving their tax refunds. The IRS indicated that it had experienced
problems with its filters established to identify fraud and with the program used by the
Modernized e-File system to create output files in the accepted e-file tax return data
format that other IRS systems need to continue processing tax returns.

The IRS has improved its processing of Homebuyer Credit installment repayments;
however, some were still processed inaccurately. TIGTA also found that some paid tax
return preparers did not fully comply with Earned Income Tax Credit due-diligence
requirements. Furthermore, as of March 3, 2012, the IRS identified 441,462 tax returns
with $2.7 billion in fraudulent refund claims and prevented the issuance of $2.6 billion
(97 percent) of those fraudulent refunds. The IRS also selected 134,509 tax returns
filed by prisoners for fraud screening, representing a 112 percent increase compared to
the last filing season.

As a result of budget constraints, the IRS expects to be able to serve fewer taxpayers at
its walk-in offices and answer fewer taxpayer telephone calls. The IRS also anticipates
that it will have increased wait times, earlier cutoffs of assistance to avoid end-of-day
overtime, and frequent unexpected closures of small walk-in offices due to unscheduled
employee absences. Tax return preparation will only be provided for a limited number
of days per week and only on a first-come, first-served basis.

The IRS is also planning on providing only a 61 percent Level of Service on its toll-free
lines. As of March 3, 2012, IRS assistors answered 7.4 million calls and achieved a 66
percent Level of Service and a 975 second (16.3 minutes) Average Speed of Answer.

Finally, during visits to Volunteer Program sites as of March 3, 2012, TIGTA had nine
tax returns prepared with a 44 percent accuracy rate. This is lower than the 60 percent
accuracy rate that TIGTA reported during the same time period for the 2011 Filing
Season.



20
     The period from January 1 through April 15 is when most individual income tax returns are filed.



                                                                    October 1, 2011 – March 31, 2012    19
                                                       TIGTA SEMIANNUAL REPORT TO CONGRESS


     This report was prepared to provide interim information only. Therefore, no
     recommendations were made in the report.
     Reference No. 2012-40-036

     Implementing Major Tax Law Changes
     Each filing season tests the IRS’s ability to implement tax law changes approved by
     Congress. Most individuals file their income tax returns and contact the IRS with
     questions about specific tax laws or filing procedures during the filing season. Correctly
     implementing late tax law changes remains a significant challenge because the IRS
     must often act quickly to assess the changes and determine the necessary actions to:

            •   Ensure that all legislated requirements are satisfied;
            •   Create new or revise existing tax forms, instructions, and publications;
            •   Revise internal operating procedures; and
            •   Reprogram major computer systems used for processing returns.

     Affordable Care Act: The Office of Appeals’ Planning Efforts for the Health Care
     Reform Legislation

     The Patient Protection and Affordable Care Act (ACA) 21 contains significant changes to
     the Nation’s health care system, which the Office of Appeals (Appeals) expects will
     result in new cases over the next several years. Appeals has taken some initial actions
     to begin preparing for the anticipated new ACA Appeals cases. Since the ACA will
     potentially affect most taxpayers, effective planning is critical to ensure Appeals’
     readiness to prepare for this legislation and resolve taxpayer requests in a timely and
     effective manner.

     After the ACA was enacted in March 2010, the IRS’s ACA Office determined that the
     impact on Appeals would be minimal until after Calendar Year (CY) 2013. However,
     Appeals management has taken some initial actions to begin preparing for the ACA
     legislation. For example, Appeals’ personnel have been detailed to the IRS’s ACA
     Office and other IRS ACA teams on an ongoing basis to remain informed on how the
     IRS is preparing for the ACA and its potential impact on Appeals. Appeals has also
     created an internal website with links to IRS ACA-related training, guidance, and other
     resources. Finally, Appeals management informed TIGTA that they are currently
     assessing how to code ACA cases in their inventory database to track the number of
     taxpayers and businesses that appeal various health care provisions.

     TIGTA believes that IRS management should develop a more formal approach to their
     ACA planning activities to ensure that they are ready to resolve taxpayer requests
     concerning ACA-related issues in a timely and effective manner. This should include
     outlining the key objectives/tasks that need to be addressed to prepare for the ACA-
     related impact on Appeals, which will be responsible for conducting these activities, and

     21
          Pub. L. No. 111-148, 124 Stat. 119 (2010).



20   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS


stating when these actions need to be completed over the next several years.

In addition, TIGTA believes that IRS management should consider the type and
frequency of communication that exists between the Appeals internal working group, the
IRS’s ACA Office, and other IRS operating divisions to ensure that their planning efforts
are coordinated as appropriate. This communication will assist Appeals’ management
to stay informed of the IRS’s actions and address provisions of the ACA.

TIGTA made no recommendations in this report. However, IRS management reviewed
the report before it was issued and offered clarifying comments and suggestions, which
were taken into account.
Reference No. 2012-13-009

Providing Quality Taxpayer Service Operations
The Department of the Treasury and the IRS recognize that the delivery of effective
taxpayer service has a significant impact on voluntary tax compliance. By answering
taxpayers’ questions to assist them to correctly prepare their tax returns, the IRS can
reduce the need to send notices and correspondence when taxpayers make errors.
Taxpayer service also reduces unintentional noncompliance and lessens the need for
future collection activity. The IRS continues to focus on the importance of improving
service by emphasizing it as a main goal in its strategic plan, including seeking
innovative ways to simplify or eliminate processes that unnecessarily burden taxpayers
or Government resources.

Increasing Requests for Offers in Compromise Have Created Inventory Backlogs
and Delayed Responses to Taxpayers

An offer in compromise (OIC) is an agreement between a taxpayer and the Federal
Government that settles a tax liability for payment of less than the full amount owed.
TIGTA found that the IRS did not always contact taxpayers when promised, and
inventory backlogs caused processing delays. Delays could impact financial and
business decisions because taxpayers do not know if or when their tax liabilities will be
resolved.

The combined impact of a weak economy and IRS efforts to promote the OIC Program
has increased the number of requested offers by 28 percent between FY 2007 and FY
2011. However, the resources available to work the offers have decreased. TIGTA
reviewed a statistically valid sample of offers and found that the IRS did not timely
process all offers. In 73 of 99 offers (74 percent), the IRS failed to contact the taxpayer
by the promised date. TIGTA estimated that 9,509 taxpayers who submitted offers
between July 1 and December 31, 2010 may not have been contacted when promised.
Additionally, as of October 25, 2011, there were 7,472 unassigned offers in holding
queues awaiting assignment to OIC staff. TIGTA found that one processing site had
more than four times as many unassigned offers from self-employed taxpayers as the
other site, and 37 percent of the offers were more than six-months old.



                                                         October 1, 2011 – March 31, 2012     21
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


     TIGTA also determined that an incorrect date was used when offers were returned to
     the IRS because of IRS processing errors. TIGTA estimated that the wrong date may
     have been used for 712 taxpayers who submitted offers between July 1, 2010 and
     December 31, 2010. Finally, TIGTA found that the IRS does not have formal
     performance measures for streamlined offers.

     TIGTA recommended that the IRS revise OIC processing procedures, train employees,
     and add a formal performance measure for the streamlined offers or apply the
     streamlined process to all offers.

     IRS management agreed with these recommendations and stated that they plan to take
     corrective actions.
     Reference No. 2012-30-033

     Human Capital
     Human capital is the Federal Government’s most critical asset. The IRS’s challenge of
     having the right people in the right place at the right time is made more difficult by many
     complex internal and external factors. The work performed by IRS employees
     continually requires greater expertise as tax laws become more complex, manual
     systems used to support tax administration become computer-based, and attempts by
     taxpayers and tax practitioners to evade compliance with the tax laws become more
     sophisticated. The IRS must also compete with other Government agencies and the
     private industry for the same human resources, which becomes more complicated as
     younger generations of employees move between jobs more frequently than employees
     in the past. Further, budgetary constraints, legislative changes, and economic shifts can
     create unforeseen challenges for the IRS as it addresses its long-term human capital
     issues.

     IRS Diversity Demographics Compare Favorably With Other Federal Agencies’
     Senior Executive Service Ranks

     Diversity and an inclusive work environment in the Federal Government’s leadership
     ranks can be a key organizational component for executing agencies’ missions and can
     yield greater engagement, productivity, and organizational performance. The IRS’s
     Senior Executive Service (SES) diversity demographic statistics compare favorably with
     those of other Federal agencies’ SES ranks. When agencies recruit and retain a
     representative leadership that looks like the public that it serves and the workforce it
     leads, they are able to better serve the public.

     The success that the IRS has achieved in its SES diversity demographics is the result of
     key diversity practices that have been integrated into business processes agency-wide,
     as well as of top-level executive commitment and support, which together have
     established a culture that respects and values diversity. However, TIGTA noted that such
     key practices were not formally documented in the IRS’s Equity, Diversity, and Inclusion
     (EDI) policies and procedures. TIGTA believes memorializing the IRS’s key diversity



22   October 1, 2011 – March 31, 2012
       TIGTA SEMIANNUAL REPORT TO CONGRESS


practices in formal internal procedures will help to ensure that these practices continue to
receive the level of commitment that it currently receives, despite retirements, attrition, or
other changes in the IRS’s top leadership ranks. In addition, the IRS could benefit by
expanding its outreach efforts to have a more specific focus at the SES level through
participation in professional executive organizations.

As a result, TIGTA recommended that the IRS:

   •    Ensure that key SES diversity practices are memorialized within EDI internal
        guidance (policies and procedures); and
   •    Consider partnering with Federal professional executive organizations and
        communicating the existence of these organizations to employees.

IRS management agreed with these recommendations and stated that they plan to take
corrective actions.
Reference No. 2012-10-006

Taxpayer Protection and Rights
The IRS must ensure that it balances tax compliance activities against the rights of
taxpayers to receive fair and equitable treatment. The IRS continues to dedicate
significant resources and attention to implementing the taxpayers’ rights provisions of
RRA 98. In general, the IRS has improved its compliance with these statutory
taxpayers’ rights provisions. However, TIGTA audits continue to show that there are
circumstances in which the IRS can better protect taxpayers’ rights.

Procedures Need to Be Updated to Ensure Proper Determinations of Tax Relief
for Taxpayers Affected by Disasters

The purpose of the Disaster Assistance Program is for the IRS to provide tax relief to
taxpayers affected by major disasters or emergencies. During these stressful and
extraordinary situations, taxpayers and tax practitioners often require disaster
assistance to enable them to meet their obligations of filing tax returns or paying taxes
without being penalized.

The IRS has developed processes and procedures that help to ensure that taxpayers
adversely affected by a major disaster or emergency receive tax relief. However,
TIGTA’s audit found that the IRS’s Disaster Assistance Program guidelines were
incomplete and inaccurate. They did not reflect the processes and procedures used by
employees to assess disasters and grant tax relief to affected individuals and
businesses. In addition, the program office is not documenting the assessment of the
severity and scope of damage for each Federally declared disaster when determining
the length and type of tax relief to be granted. Without formal documentation, there is
no evidence to support the determination for external stakeholders.




                                                         October 1, 2011 – March 31, 2012    23
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS


     Finally, TIGTA found that the IRS did not always timely release disaster relief indicators
     from individual tax accounts. TIGTA’s analysis of tax accounts as of December 31,
     2010, identified 597,513 individual tax accounts with an erroneous active disaster relief
     indicator. This was subsequently corrected when the IRS moved these accounts back
     to the Individual Master File. 22 Although the disaster relief indicators were not timely
     released, none of the individuals received erroneous tax relief benefits.

     TIGTA recommended that the IRS:

           •   Ensure that guidelines are updated to reflect the current processes and
               procedures used to assess Federally declared disasters and grant tax relief to
               affected individuals and businesses;
           •   Ensure that guidelines include a detailed description of the assessment and
               documentation prepared for the review of the unique facts and circumstances of
               each disaster, including the severity and scope of damage, when determining the
               disaster relief period and type of tax relief to be granted; and
           •   Develop programming to systemically release the disaster relief indicators on tax
               accounts stored on a database other than the Individual Master File.

     IRS management agreed with these recommendations and stated that they plan to take
     corrective actions.
     Reference No. 2012-40-015

     Achieving Program Efficiencies and Cost Savings
     Given the current economic environment and the increased focus by the Administration,
     Congress, and the American people on Government accountability and the efficient use
     of resources, the American people must be able to trust that their Government is taking
     action to stop wasteful practices and to ensure that every tax dollar is spent wisely.
     While the IRS has made progress in using its data to improve program effectiveness
     and reduce costs, this area continues to be a major challenge.

     Eliminating the Automatic Mailing of Tax Packages Achieved Significant Savings,
     Although Some Taxpayers Were Burdened

     Part of the IRS’s mission is to help taxpayers meet their tax responsibilities. To assist
     taxpayers, the IRS has, in the past, mailed forms with instructions and publications to
     individual and business taxpayers. However, in response to the continued increase in
     e-filing, and in the interest of saving postage and publishing costs, the IRS discontinued
     the mailing of tax packages in FY 2011.

     As of August 2011, TIGTA determined that the IRS saved approximately $14.19 million
     by not mailing TY 2010 tax packages. The IRS did capture costs and savings
     associated with the elimination of mailing tax packages. However, it did not document

     22
          The IRS database that maintains transactions or records of individual tax accounts.



24   October 1, 2011 – March 31, 2012
       TIGTA SEMIANNUAL REPORT TO CONGRESS


all calculations and sources, or validate and consider all costs and savings.

The elimination of individual tax package mailings increased the burden for a number of
taxpayers, including those who complained that they could not locate the forms that
they needed, or those who did not know which forms to use. It also caused about six
million taxpayers to spend an additional one and one-half million hours to obtain tax
forms. The IRS failed to capture all the comments and complaints received by various
sources or to incorporate them into a long-term strategy to monitor taxpayer burden.

TIGTA recommended that the IRS:

   •    Develop a process to ensure that savings and cost data related to the future
        elimination or reduction of mailing tax products are current and reliable; and
   •    Develop and document a formal strategy to ensure that publishing and postage
        costs are continually evaluated and cost and savings calculations are
        documented and validated.

IRS management agreed with these recommendations and stated that they have taken
corrective actions.
Reference No. 2012-40-008




                                                        October 1, 2011 – March 31, 2012   25
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




26   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



  Protect the Integrity of Tax Administration

T
    IGTA’s Office of Investigations (OI) has the unique statutory mandate to protect
    the tax system which funds the Federal Government. This statutory mandate is
    substantially broader than that of most Offices of Inspectors General. While all
    Offices of Inspectors General combat waste, fraud, and abuse, TIGTA has a dual
mandate to also protect the integrity of Federal tax administration.

To achieve this broad mandate, OI performs a range of functions, including:

 •   Investigating allegations of criminal violations and criminal and serious
     administrative misconduct by IRS employees which undermines the integrity
     of our voluntary tax system;
 •   Investigating assaults on, and threats to, IRS employees, facilities, and
     information systems;
 •   Investigating external attempts to corrupt tax administration;
 •   Investigating waste, fraud, and abuse involving IRS procurements;
 •   Initiating proactive investigations to detect criminal and administrative
     misconduct in the administration of IRS programs;
 •   Providing integrity and fraud awareness presentations for IRS employees and
     others, such as tax practitioners and community groups;
 •   Administering a national complaint center, including a hotline and website, to
     process complaints of waste, fraud, abuse, and misconduct involving IRS
     employees and programs;
 •   Operating a criminal intelligence program to proactively identify and mitigate
     threats to IRS employees or to the continuity of IRS operations;
 •   Conducting forensic examinations of physical and electronic evidence to
     support investigations; and
 •   Employing specialized technical and investigative support equipment,
     training, and techniques to enhance investigative outcomes.

TIGTA’s work impacts every citizen of the United States every day, because the tax
system it protects provides for the health, safety, welfare, and common defense of every
American.




                                                      October 1, 2011 – March 31, 2012     27
                                             TIGTA SEMIANNUAL REPORT TO CONGRESS




                                     Performance Model

     OI focuses its resources and
     bases its performance
     measures on three primary
     areas of investigative
     responsibility: employee
     integrity; employee and
     infrastructure security; and
     external attempts to corrupt
     Federal tax administration. The
     performance model also helps
     OI to ensure that its outcome
     measures are aligned with its
     strategic goals.




     The following chart illustrates the distribution of OI’s work throughout this reporting
     period:

     The performance model helps
     OI allocate resources to areas                   Areas of Investigation
     of greatest need. Based on
     recent investigative activity, OI
     has reprioritized its resources                         External
     to give greater focus on threats                       Attempts to
                                                              Corrupt
     made against the IRS.                                      14%


                                                                              Employee
                                                                               Integrity
                                                      Employee/                  46%
                                                    Infrastructure
                                                       Security
                                                         40%




28   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



Threats Against IRS Employees and Facilities
OI categorizes threats against IRS employees,
facilities, and infrastructure as Employee and
Infrastructure Security investigations. During this       In 2011, OI assumed the
reporting period, 40 percent of OI’s work involved        primary responsibility for
this area of the performance model.                       all armed escorts of IRS
                                                          employees to ensure that
IRS employees face a difficult and challenging            they are able to perform
mission in dealing with taxpayers. Sometimes              their jobs without fear for
individuals resort to violent acts against the IRS.       their safety.
OI considers responding to and investigating
threats and assaults against IRS employees to be
its highest priority. OI also investigates harassment of IRS employees as they carry out
their duties. TIGTA is committed to protecting approximately 100,000 IRS employees
and more than 700 facilities throughout the U.S. and its territories. Over the last six
months, OI has conducted 615 threat and assault investigations.

OI carries out a number of initiatives to protect IRS personnel and facilities from threats
and attacks. TIGTA’s Criminal Intelligence and Counterterrorism (CICT) group supports
OI’s efforts to prevent individuals and groups from threatening, assaulting, intimidating,
or otherwise impeding IRS employees in the performance of their duties.

The main focus of CICT is to proactively identify individuals or groups that express or
advocate violence against IRS employees, facilities, or critical infrastructure, where
such threats or activities would cause harm or could reasonably threaten the safety of
IRS employees or impede the administration of the Internal Revenue laws. This effort
also focuses on individuals involved in domestic terrorism and others who advocate the
use of violence to avoid complying with their tax obligations.

In addition to conducting criminal investigations of individuals and groups intent on
causing harm to the IRS, OI endeavors to protect IRS personnel and facilities through
several programs.

One such program is providing armed escorts for IRS employees during face-to-face
contact with taxpayers whom the IRS has identified as potentially dangerous, or when
OI has an open assault or threat investigation on a taxpayer. OI initiated nearly as
many armed escorts during the first six months of FY 2012 as it completed in FY 2010.
OI expects the number of armed escorts it conducts will continue to rise for the
remainder of the Fiscal Year.




                                                        October 1, 2011 – March 31, 2012      29
                                                  TIGTA SEMIANNUAL REPORT TO CONGRESS




                                      Armed Escorts Initiated

                    120

                    100

                      80
                                                                                       Armed
                                                                                       Escorts
                      60                                                               Initiated
                                                          101
                      40

                      20                     39                         32
                                23
                       0
                            FY 2009       FY 2010      FY 2011      FY 2012*

                      *Indicates armed escorts initiated for the six-month reporting period


     As a result of the February 2010 attack against an IRS office in Austin, Texas, the CICT
     group worked closely with the IRS to create the Threat Information and Critical Incident
     Response Initiative (TIRC). TIRC was established as the focal point for the timely
     identification, review, dissemination, and coordination of threat information between the
     IRS and TIGTA’s OI field divisions.

     To achieve this coordination, the CICT group created the Threat Information Notification
     System (TINS). Threat information is analyzed, categorized, processed, and
     appropriately disseminated as quickly as possible. TINS alerts key personnel of threats
     and incidents, and streamlines coordination of investigative and threat mitigation
     between OI and the IRS. There are different categories of TINS reports, with the
     highest level encompassing situations involving a direct threat of an imminent physical
     assault action against identifiable IRS personnel, facilities, or critical infrastructure. In
     2011, CICT produced and disseminated 298 TINS reports, 79 of which were of the
     highest level, to include: threats to blow up IRS facilities; shoot or assault IRS
     employees; and drive vehicles into IRS buildings. TINS reports were also issued
     regarding the mailing of white powdery substances to IRS facilities with the intent to
     disrupt operations and cause widespread distress among IRS employees and personnel
     in the facility. On average, OI field special agents have been able to mitigate these
     dangerous threats to the Federal system of tax administration within 24 hours of receipt.

     Theft of Sensitive Taxpayer Information and Identity Fraud
     OI recognizes that tax fraud perpetrated by identify theft is a growing problem. OI is
     aggressively addressing this problem by focusing its resources on the following areas of
     identity theft that directly impact Federal tax administration:




30   October 1, 2011 – March 31, 2012
       TIGTA SEMIANNUAL REPORT TO CONGRESS



   •    IRS employee involvement in the
        scheme - either through Unauthorized
        Access (UNAX) to taxpayer information,         “Tax fraud perpetrated by identity
        disclosure, or as a participant in the         theft is a growing concern,
        criminal activity;                             despite the IRS’s efforts to
   •    Preparers who misuse and disclose              address this serious problem.
        client information to others in                For Calendar Year 2011, the IRS
        furtherance of identity theft (excluding       estimates the number of
        tax preparers who prepare and file             taxpayers impacted by identity
        fraudulent tax returns for the purpose of      theft – just through the August
        personally stealing the refund); and           timeframe – is more than twice
   •    Impersonation of the IRS in furtherance        the annual estimate for Calendar
        of the identity theft scheme.                  Year 2008. Whenever identity
                                                       theft permits criminals to commit
Phishing schemes are prominent examples                tax fraud, law-abiding taxpayers
where individuals impersonate the IRS to               are too often harmed, both
commit identity theft. There has been a                financially and personally.
significant spike in these types of schemes.           Further, the essential trust and
E-mail messages that are designed to look like         reliability of the Nation’s tax
legitimate communications are sent to the              administration system is eroded.”
victims of this crime. The IRS name, the IRS
seal, and sometimes the names or identities of                                J. Russell George
                                                                      Inspector General for Tax
real IRS employees, including the IRS
                                                          Administration “Identity Theft and Tax
Commissioner, are used to lend credibility to           Fraud” testimony on November 4, 2011
these phishing schemes.

The details of each scheme tend to vary, but
the common thread is the use of the IRS name
to lure recipients into accessing links or providing sensitive information. The schemes
generally attempt to pressure victims with these basic approaches:

   •    Victims are told that they are either due a refund or that a tax payment was
        rejected and the taxpayer needs to click on a link which either opens an attached
        form or takes them to a website where they enter their Personally Identifiable
        Information (PII) and credit card information;
   •    Victims are told that they are being investigated by the IRS and need to
        immediately respond by clicking on a link which opens an attached form or takes
        them to a website where they are prompted to provide their PII to verify the
        status of their tax matter; or
   •    Victims are told they won a prize, but they must first pay their Federal tax.

In these situations, the victim is presented with an official-looking “IRS form” or a
website which is designed to replicate a legitimate IRS.gov website, often by using
authentic images and seals.




                                                        October 1, 2011 – March 31, 2012           31
                                                             TIGTA SEMIANNUAL REPORT TO CONGRESS


     In situations where victims are asked to provide information, their Social Security
     Numbers (SSN) and financial information are then used to commit identity theft. These
     schemes also take the form of unsolicited telephone calls and faxes to taxpayers, often
     using Voice over Internet Protocol (VoIP) phone lines.

     As part of its efforts to combat the rise of IRS phishing, TIGTA has developed a close
     working relationship with the IRS’s Office of Online Fraud Detection and Prevention
     (OFDP), which is the primary function responsible for tracking and identifying fraudulent
     websites and phishing schemes. TIGTA’s OI also conducts investigations into phishing
     schemes. IRS’s OFDP and TIGTA‘s OI work together to educate taxpayers, Government
     agencies, and the tax preparer community about IRS phishing scams and related
     impersonation schemes.


                                                          Phishing Sites
                                   16000

                                   14000                                              14254

                                   12000
                 Number of Sites




                                   10000

                                    8000
                                                                                                 Phishing
                                    6000                                                         Sites
                                                                        4967
                                    4000                                       4238
                                                                 3030
                                    2000
                                                           889
                                           0    4   245
                                       0
                                           2004 2005 2006 2007 2008 2009 2010 2011
                                                            Calendar Year
                                    Data Source: IRS Office of Online Fraud Detection and Prevention

     The spike in activity in 2011 is generally attributed to large-scale malware distribution
     campaigns hidden behind large groups of compromised computers called “botnets.” In the
     first quarter of CY 2012 alone, over 9,916 phishing sites involving online impersonation
     schemes and fraudulent IRS websites were identified. Although there are few reliable
     measures to indicate whether or not the activity will continue to increase in the future,
     there is little sign that phishing activity directed against taxpayers will decrease in the near
     term.

     Employee Integrity Investigations

     Employee misconduct undermines the IRS’s ability to deliver taxpayer service, to
     enforce tax laws effectively, and to collect taxes. Over one-half of OI’s investigations
     are based on allegations or information indicating that IRS employees have engaged in



32   October 1, 2011 – March 31, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS


misconduct. Misconduct by IRS employees manifests itself in a variety of ways,
including extortion, theft, taxpayer abuses, false statements, and financial fraud.

Unauthorized Access (UNAX) to taxpayer
information by IRS employees is a persistent
vulnerability of the IRS and the Federal tax system.        To protect the integrity of
The IRS is entrusted with properly maintaining and          taxpayer information,
safeguarding sensitive taxpayer information, the            TIGTA analyzes data to
loss or misuse of which could result in identity theft      identify IRS employees
and other fraudulent activity. Because the Federal          who improperly access
tax system is based on voluntary compliance, it is          confidential information
essential to the public’s confidence that personal          and taxpayers’ records.
and financial information given to the IRS for tax          Through the identification
administration purposes will be kept confidential.          and investigation of IRS
Even when an unauthorized access does not                   employees responsible for
involve an unauthorized disclosure of taxpayer              wrongfully accessing
information by an IRS employee, these cases                 confidential taxpayer
compromise taxpayer confidence in the Federal tax           information, TIGTA helps
administration system.                                      to minimize opportunities
                                                            for potential identity theft.
The following cases are examples of employee
integrity investigations conducted during this six-
month reporting period:

IRS Revenue Officer Sentenced for Stealing Approximately $160,000 in Taxpayer
Funds

On October 21, 2011, in New York, New York, IRS Revenue Officer Fern Stephens was
sentenced to six-months’ imprisonment after pleading guilty to mail fraud, theft of
Government funds, and unlawfully accessing a Government computer. Stephens was
also ordered to serve three years of supervised release following imprisonment, and to
pay $160,863 in restitution. 23

Stephens was employed by the IRS from January 1984 through December 2010. She
served as an IRS Revenue Officer since the early 1990s and in that capacity was
responsible for collecting Federal taxes from individuals and corporations. As a
condition of her employment, she was required to sign an annual certification stating
that she would not access taxpayer records in IRS databases except in connection with
her official duties. 24

From March 2003 through November 2010, Stephens used her position as a Revenue
Officer to steal taxpayer funds held by the IRS by devising a scheme involving the use
of an IRS database. Stephens’ scheme included making false computer entries that
documented alleged requests to transfer corporate or business-entity tax refunds or

23
     S.D.N.Y. Judgment filed Oct. 25, 2011.
24
     S.D.N.Y. Indict. filed Dec.13, 2010.



                                                         October 1, 2011 – March 31, 2012   33
                                                    TIGTA SEMIANNUAL REPORT TO CONGRESS


     payments. Her actions caused the IRS to make 20 fraudulent credit transfers from
     approximately 14 taxpayer victims to eight of her relatives or close associates. 25

     State Government Employee Sentenced for Unauthorized Access to a Computer

     On November 14, 2011, in Sacramento, California, Valerie Walker was sentenced to
     12-months’ probation, fined $1,000, and ordered to pay a $25 special assessment for
     accessing private information on a work computer without authorization. 26

     According to court documents, Walker exceeded her authority by intentionally accessing
     private taxpayer information while employed at the California Franchise Tax Board
     (FTB) as a Senior Compliance Representative. 27 The electronically stored Federal tax
     information was provided to the FTB by the IRS. 28 Walker researched Federal tax
     returns, SSNs, and addresses of seven individuals when she had no legitimate
     business reason to do so. 29

     Employee and Infrastructure Security
     Congress recognized the importance of protecting
     Federal tax administration when it created TIGTA.
     TIGTA is responsible for investigating threats to               In 2011, to support OI’s
     IRS employees, physical infrastructure, and the                 proactive threat and
     electronic environment in which the majority of                 intelligence gathering role
     Federal tax administration occurs.                              as it relates to emerging and
                                                                     mature anti-tax and anti-
     The following cases are examples of employee and                government extremist
     infrastructure security investigations conducted                groups, OI established a
     during this six-month reporting period:                         full-time presence at the
                                                                     FBI’s National Joint
     Georgia Men Charged in Plots to Purchase                        Terrorism Task Force and
     Silencers, Explosives, and to Manufacture a                     the Domestic Terrorism
     Biological Toxin                                                Operations Unit. This
                                                                     partnership with the FBI has
     On November 3, 2011, in Gainesville, Georgia,                   strengthened OI’s access
     Frederick W. Thomas, Emory Dan Roberts, Samuel                  and ability to respond to
     J. Crump, and Ray H. Adams were indicted on                     IRS-related, actionable
     charges related to plans to obtain weapons and                  intelligence.
     explosives and to manufacture the biological toxin
     ricin, in violation of Federal law. 30


     25
        S.D.N.Y. Indict. filed Dec.13, 2010.
     26
        E.D. Cal. Judgment filed Nov. 18. 2011.
     27
        E.D. Cal. Plea Agr. filed June 20, 2011.
     28
        E.D. Cal. Info. filed Mar. 14, 2011.
     29
        E.D. Cal. Plea Agr. filed June 20, 2011.
     30
        N.D. Ga. Crim. Indict. filed Nov. 3, 2011



34   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS


According to court documents, Thomas and Roberts met to discuss the formation of a
covert militia group which would plan and carry out armed attacks on Government
buildings and Federal Government employees, including law enforcement personnel.
The members of the militia discussed their willingness to advance the group’s objectives
by assassinating others by various means including the use of a toxin. 31 Thomas
particularly expressed a desire to kill Department of Justice and IRS employees. 32

Thomas sought to obtain handgun and rifle silencers. In furtherance of their plans to
attack Federal officials and law enforcement agencies, they discussed making claymore
mines and acquiring trinitrotoluene (TNT) to make their own destructive devices. 33
Crump and Adams attended several meetings conducted by Thomas and Roberts.
Both Crump and Adams aided and abetted one another and others in their conspiracy
and attempt to develop, produce, and possess ricin for use as a weapon. Crump
planned to produce ten pounds of ricin and disperse the ricin in several cities in the
U.S. 34

Colorado Man Sentenced for Impeding Internal Revenue Administration

On November 15, 2011, in Denver, Colorado, Gary Neuger was sentenced to 24-
months’ imprisonment, followed by one year of supervised release. Neuger was
ordered to pay restitution in the amount of $393,791, as well as a special assessment of
$200. Additionally, Neuger must complete a mental health treatment program for filing
a false tax return and impeding Internal Revenue administration. 35

According to court documents, Neuger admitted that he willfully filed false tax returns
and took various steps to impede collections by the IRS. In 1997, Neuger stopped
paying his Federal income taxes. The IRS then initiated several attempts to collect his
outstanding taxes. It was at this time that Neuger began protesting the Federal tax
system and started to harass and impede the IRS’s collection efforts. 36

From May 2000 until November 2008, Neuger sent more than one dozen threatening
letters to the IRS. Throughout this time period, he filed several lawsuits against IRS
employees both in Federal and State courts and threatened employees with arrest. He
also sought summonses against IRS employees in the course of protesting the levying
of Federal taxes. 37

In 2003, Neuger filed a fabricated default judgment wherein he falsely claimed that he
had won a lawsuit against the IRS in Federal court and demanded damages. In



31
   N.D. Ga. Crim. Indict. filed Nov. 3, 2011.
32
   N.D. Ga. Crim. Compl. for Frederick W. Thomas filed Nov. 1, 2011.
33
   N.D. Ga. Crim. Indict. filed Nov. 3, 2011.
34
   Id.
35
   D. Co. Judgment filed Nov. 22, 2011.
36
   D. Co. Reporter’s Transcript (Sentencing Hearing: Order) filed Nov. 22, 2011.
37
   Id.



                                                                  October 1, 2011 – March 31, 2012   35
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS


     furtherance of his cause, Neuger filed lawsuits against any business that complied with
     the IRS’s levies and sought to have the business owners arrested. 38

     Alabama Man Sentenced for Threatening an IRS Employee

     On January 30, 2012, in Birmingham, Alabama, Thomas Sitzler was sentenced to 12-
     months’ probation with special conditions that he participate in mental health rehabilitation
     programs, as well as in drug and alcohol counseling. Additionally, Sitzler must pay a
     $3,000 fine and a $25 special assessment for making a telephone threat to an IRS
     employee. 39

     According to the plea agreement, on September 12, 2011, Sitzler called an IRS facility
     located in Dallas, Texas, requesting to speak with a supervisor regarding a tax matter.
     An IRS employee advised Sitzler that she could not find a supervisor at that time, but
     that she would leave a note requesting that her supervisor contact Sitzler. Hearing that,
     Sitzler became incensed and issued a threat stating, "I have paid over $1.5 million in
     Federal taxes while illegals reap the benefits of people like me who pay their taxes.
     And the IRS is screwin' [sic] me over. So write that down please. Report it to anybody
     you wanna [sic] report it to. I’ll be in Austin next week, and I will blow up the building.
     I’ll make Waco, Oklahoma City, and 9/11 look like a fire drill."

     External Attempts to Corrupt Tax Administration
     TIGTA has a statutory mission to investigate
     external attempts to corrupt or impede the                               Theodore Roosevelt stated in
     administration of Internal Revenue laws. Such                            his 1903 Annual Message to
     attempts include:                                                        Congress: “There is no crime
                                                                              more serious than bribery.
           •   Taxpayers offering bribes to IRS employees                     Other offenses violate one
               to reduce their tax liability;                                 law while corruption strikes at
           •   The use of fraudulent liens to harass and                      the foundation of all law.”
               retaliate against IRS and other Federal
               employees;                                                     Bribery investigations remain
           •   The use of fraudulent IRS documentation to                     critical in TIGTA’s attempt to
               advance criminal activity;                                     thwart criminal activities that
           •   Impersonation of IRS officials (in person, by                  threaten the integrity of tax
               telephone, or via the Internet); and                           administration. Additionally,
           •   Corruption of IRS programs or operations                       bribery impedes the IRS’s
               through procurement or contractor fraud.                       ability to properly collect
                                                                              revenue and, if allowed to go
     The following are examples of external attempts to                       unchecked, substantially
     corrupt tax administration investigations performed                      undermines the integrity of
     during this six-month reporting period:                                  Federal tax administration.

     38
          D. Co. Reporter’s Transcript (Sentencing Hearing: Order) filed Nov. 22, 2011.
     39
          N. D. Ala. Judgment filed Feb. 3, 2012.



36   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS


Individual Sentenced for Bribing a Public Official

On December 14, 2011, in White Plains, New York, Chinh Tran was sentenced to time
served and two-years’ supervised release for bribing an IRS revenue agent (RA). The
first year is to be served as home confinement. Tran must also pay a special
assessment of $100. 40

According to court documents, between August 17, 2010 and October 5, 2010, Tran
unlawfully and knowingly gave things of value to the RA with the intent to influence an
official act. Specifically, Tran gave the RA $18,000 in cash and a bottle of tequila for the
purpose of having the RA close a pending tax audit of Tran's income tax return. Tran
also expected that the RA would issue a letter indicating that no changes were
proposed to her income tax return as a result of the audit. 41

Louisiana Seafood Distributor Pleads Guilty to Bribery

On January 5, 2012, in New Orleans, Louisiana, Vihn Q. Tran pled guilty to bribery of a
public official. 42 According to court documents, Tran offered $6,000 in cash and other
items of value to an IRS agent with the intent to influence an IRS audit of his seafood
distribution business. 43

Tran owns and operates a seafood company that was licensed to conduct business in
Louisiana as a shrimp and seafood distributor. In August 2007, an IRS agent delivered
an appointment letter to Tran to schedule an IRS audit of Tran’s business. At the
conclusion of the meeting, Tran offered the IRS agent lunch; however, the agent
declined. During a subsequent meeting, Tran told the agent that he would take care of
him if the agent took care of Tran. Tran then asked the agent to make sure that he
owed little or no taxes and to make the audit paperwork “clear.” Tran offered the agent
$6,000 to help pay little or no Federal taxes. 44

During follow-up meetings, Tran made an initial bribe payment of $500 cash and 75
pounds of jumbo shrimp valued at approximately $400. Tran made additional cash
payments to the agent totaling $5,500. The agent later provided Tran with two IRS
audit reports from which Tran could choose. First, the agent offered a legitimate audit
report that reflected that Tran and his business owed the IRS approximately $2 million.
Next, the agent presented a fictitious audit report indicating that no taxes were owed by
Tran or his business. Tran selected the fictitious audit report. 45

In April 2011, TIGTA special agents interviewed Tran concerning the bribery payments
made to the IRS agent. Tran acknowledged that he made bribe payments over the

40
   S. D. N.Y. Judgment filed Jan. 10, 2012.
41
   S. D. N.Y. Crim. Info. filed May 11, 2011.
42
   E.D. La. Re-Arraignment and Plea Letter filed Jan. 5, 2012.
43
   E.D. La. Bill of Info. filed Nov. 29, 2011.
44
   E.D. La. Factual Basis filed Jan. 5, 2012.
45
   Id.



                                                                 October 1, 2011 – March 31, 2012   37
                                                  TIGTA SEMIANNUAL REPORT TO CONGRESS


     course of several meetings in an effort to obtain audit reports that showed he owed no
     taxes. Tran also admitted that he was aware that what he was doing was against the
     law. 46

     Maryland Man Sentenced for Filing a False Retaliatory Lien and Three False
     Claims for Tax Refunds

     On February 15, 2012, in Greenbelt, Maryland, Andrew Isaac Chance was sentenced
     for filing a false retaliatory lien against a Government employee and for filing three false
     claims against the U.S. for income tax refunds. Chance was ordered to serve 65-
     months’ imprisonment followed by three years of supervised release. He also was
     ordered to pay a $400 special assessment. 47

     According to the Indictment, in 2007, Chance was convicted for filing a false IRS Form
     1041, U.S. Income Tax Return for Estates and Trusts. He falsely claimed a $306,753
     refund for TY 2005. For this conviction, Chance was sentenced to 27 months in Federal
     prison. In 2009, he was released. 48

     Shortly after his release from prison in 2009, Chance filed a false lien against the Federal
     prosecutor of his 2007 case, claiming that the prosecutor owed him $1.3 billion. Chance
     subsequently submitted additional false returns with the IRS seeking refunds for 2007,
     2008, and 2009. With these filings, Chance sought a total of $900,000. He once again
     falsified IRS Form 1041, which had previously resulted in his 2007 conviction. 49 In the
     end, on November 18, 2011, Chance was convicted of filing a false retaliatory lien. In
     addition, he received a second conviction for filing false claims for tax refunds.

     Tennessee Woman Sentenced for Fake Inheritance and IRS Scam

     On January 3, 2012, in Greeneville, Tennessee, Stephanie Bare was sentenced to
     serve 46 months in prison and three years of supervised release for conspiracy to
     commit wire fraud. She was also ordered to pay $553,310 in restitution and a $200
     assessment. 50

     According to court documents, Stephanie Bare devised a confidence scheme to defraud
     victims of more than $500,000. In order to support themselves, Stephanie and her
     husband, David, embarked on an elaborate ruse which continued for nearly five years, and
     which involved a fake inheritance and an alleged freeze on their assets by the IRS. 51




     46
        E.D. La. Factual Basis filed Jan. 5, 2012.
     47
        D. Md. Judgment filed Feb. 17, 2012.
     48
        D. Md. Indict. filed Dec. 13, 2010.
     49
        Id.
     50
        E.D. Tenn. Crim. Minutes: Sentencing filed Jan. 3, 2012.
     51
        E.D. Tenn. Plea Agr. filed July 7, 2011.



38   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS


As part of the fraudulent scheme, Stephanie Bare fabricated promissory notes,
documents, and e-mails, and either impersonated or caused others to impersonate
individuals in positions of authority, such as IRS collection officers and lawyers. 52

The plan involved an elaborate plot which included a $10 million alleged inheritance that
David Bare received from his sister. Allegedly, in the settlement of the estate, he
retained a law firm that failed to pay the appropriate Federal estate tax to the IRS and
other taxes owed to the Commonwealth of Virginia. Consequently, the IRS seized the
entire $10 million inheritance and froze the Bares’ personal bank accounts, real
property, and Social Security accounts. As a result, the Bares said they were unable to
negotiate checks, borrow money from financial institutions, or otherwise conduct routine
financial transactions. 53

To implement the scheme, Stephanie Bare typically approached a friend or family
member requesting small loans which she promised to repay once they received the rest
of the “inheritance.” She provided either a letter purportedly from the IRS or the
Commonwealth of Virginia, or a letter from a law firm or investment firm to verify her story.
When victims asked for a promissory note to secure the loan, she provided them the
requested note, which was complete and contained both her and that of her husband’s
signature. The Bares even promised to repay the loans at exorbitant rates of interest that
were sometimes as high as 200 percent. All of the documents were false. 54

The fraudulent scheme included personal and telephone conversations, e-mail
communications, letters sent via the U.S. mail, and false claims about transactions with
the IRS, the Commonwealth of Virginia, the State of Tennessee, Wachovia Bank,
Citizens Bank and Trust, and various law firms and investment firms. 55

California Man Sentenced for Filing Liens or Encumbrances Against U.S.
Employees

On October 26, 2011, in Las Vegas, Nevada, Thanh Viet Jeremy Cao was sentenced to
41 months of imprisonment and three years of supervised release. He was ordered to
pay a special assessment of $600 for filing false liens and encumbrances against U.S.
employees. 56 Cao pled guilty to six counts of the indictment. 57 Each count carried 41
months of imprisonment and three years of supervised release; however, all six counts
are to be served concurrently. 58

According to the plea agreement, Cao filed 22 false liens and encumbrances against U.S.
employees in retaliation for performing their official duties with respect to Cao. The victims


52
   E.D. Tenn. Sentencing Memo filed Dec. 27, 2011.
53
   E.D. Tenn. Plea Agr. filed July 7, 2011.
54
   Id.
55
   Id.
56
   D. Nev. Judgment filed Oct. 26, 2011.
57
   D. Nev. Plea Agr. filed June 7, 2011.
58
   D. Nev. Judgment filed Oct. 26, 2011.



                                                        October 1, 2011 – March 31, 2012    39
                                                  TIGTA SEMIANNUAL REPORT TO CONGRESS


     included two U.S. Magistrate Judges, two U.S. District Judges, and four IRS CI special
     agents. 59

     Beginning in February 2007 until July 2010, Cao was involved in various matters
     concerning Federal courts and Federal agencies, including the Securities and Exchange
     Commission, the U.S. Attorney’s Office for the Southern District of California, the U.S.
     Secret Service, and the IRS. In addition to these proceedings, Cao was under
     investigation by CI regarding tax returns he prepared and filed with the IRS. He submitted
     Federal individual and corporate income tax returns on behalf of himself and his clients
     claiming large refunds based upon fictitious income tax withholdings. 60 In response to the
     proceedings and investigations, Cao filed public record liens and encumbrances against
     the real and personal property of the victims. Cao knew when he filed the documents that
     each lien or encumbrance contained false, fictitious, and fraudulent statements, including
     statements that each victim was a “debtor” who owed Cao a large sum of money. He
     falsely claimed that each judge was a “debtor” to him in the amount of $300,000,000 and
     that CI special agents were “debtors” to him in the amount of at least $100,000,000. 61

     Mark Leitner Sentenced for Obstructing and Impeding the Due Administration of
     the Internal Revenue Laws and Filing False Liens Against Federal Employees

     On September 30, 2011, in Pensacola, Florida, Mark Leitner was sentenced to 30
     months in prison for corruptly endeavoring to obstruct and impede the due
     administration of the Internal Revenue laws and filing false liens against Federal
     employees. 62

     Leitner filed false liens against numerous Federal employees including the U.S.
     Attorney for the Northern District of Florida, the previous Clerk of the court, several
     Assistant U.S. Attorneys, department trial attorneys, and a CI special agent who
     prosecuted him for tax fraud in 2010. 63

     Throughout the jury trial and after his conviction, Leitner filed false maritime liens
     against the property of court and law enforcement personnel involved in his criminal
     trial. These false liens claimed that Leitner was owed $48.489 billion from each named
     individual. Five of the seven false liens disclosed PII and the individual’s SSN. 64

     Leitner will serve his prison sentence consecutively with the five-year prison sentence
     he received for a 2010 conviction for tax fraud. 65




     59
        D. Nev. Plea Agr. filed June 7, 2011.
     60
        Id.
     61
        Id.
     62
        N.D. Fla. Crim. Minutes filed Sep. 30, 2011.
     63
        N.D. Fla. Info. filed July 18, 2011.
     64
        Id.
     65
        N.D. Fla. Info. filed July 18, 2011. See also Case No. 3:08cr00079MCR; N.D. Fla. J. filed Aug. 7, 2010.



40   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS


Myran Butler Sentenced for Misusing the Department of the Treasury’s Symbol

On October 19, 2011, in Salt Lake City,
Utah, Myran Butler was sentenced to seven-
months’ imprisonment and a 12-month term                       The Secretary of the Treasury
of supervised release. He was ordered to                       has delegated to TIGTA the
pay a special assessment of $25. Mr. Butler                    authority to investigate violations
was convicted of one count of misusing the                     of Title 31 U.S.C. 333, Misuse of
Department of the Treasury’s symbol. 66                        Treasury Name or Symbol.
According to court documents, Butler                           Through this delegated authority,
knowingly used the words, “Department of                       TIGTA investigates private
the Treasury,” or the “Internal Revenue                        entities that make false
Service” in connection with his business and                   representations to deceive
in a manner that could be reasonably                           taxpayers into believing that the
interpreted as falsely conveying that such                     entity is actually endorsed by or
business activity was approved and                             affiliated with the IRS. The
authorized by the Department of the                            authority includes the ability to
Treasury or the IRS. 67                                        seek prosecution, assess civil
                                                               penalties, and issue cease-and-
Butler falsely made and provided to a client a                 desist letters to violators. Cease-
replica of IRS Form 668-D, Release of                          and-desist letters instruct the
Levy/Release of Property of Levy, by altering                  addressee to immediately stop
an official form. The false Form 668-D                         conduct that violates the statute.
contained the forged signature of an IRS tax
specialist. Butler also provided the form to
his client as proof that proceedings with the
IRS had been completed. 68

Arkansas Woman Sentenced for Defrauding Clients of $1.5 Million

On February 9, 2012, in Fayetteville, Arkansas, Kimberly O'Dell, who pled guilty to wire
fraud, money laundering, and misuse of the Department of the Treasury's seal, names,
and symbols, was sentenced to serve 108-months’ imprisonment and three years of
supervised release. O'Dell was also ordered to pay $1,561,069 in restitution, $150,000
in fines, and a $1,025 special assessment. 69

According to the plea agreement, O'Dell founded the business “O'Dell and Associates,”
which provided general accounting services in Arkansas. From November 2005 through
September 2008, she devised a scheme to obtain money from her clients under fraudulent
pretenses, representations, and promises. O’Dell’s scheme included transferring money
from her clients' bank accounts via telephone transfers and online computer transfers to
her company’s American Express account. She also took money from her clients’ bank

66
   D. Utah Judgment filed Oct. 20, 2011.
67
   D. Utah Misdemeanor Info. filed Feb. 3, 2011.
68
   D. Utah Stat. by Defendant in Advance of Plea of Guilty filed June 15, 2011.
69
   W.D. Ark. Judgment filed Feb. 9, 2012.



                                                                  October 1, 2011 – March 31, 2012   41
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS


     accounts by writing checks on their accounts to herself and her accounting firm. Typically,
     these transactions were done without her clients' authorization. 70

     In July 2008, O'Dell misused the name of the IRS in a manner that conveyed a false
     impression. For the purpose of delaying the discovery of her fraudulent scheme, she
     tampered with a letter that was purported to be from the IRS. O'Dell used the IRS
     letterhead, falsified the contents of the letter, signed it with a fictitious name, and then
     sent it to her clients. 71




     70
          W.D. Ark. Plea Agr. filed Sept. 8, 2011.
     71
          Id.



42   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



      Advancing Oversight of America’s Tax
                   System
      IGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely,

T     and cost-effective inspections and evaluations of challenging areas within the IRS,
      providing TIGTA with additional flexibility and capability to produce value-added
      products and services to improve tax administration. Its work is not a substitute
for audits and investigations; in fact, its findings may result in subsequent audits and/or
investigations.

The Office has two primary product lines: inspections and evaluations.

Inspections are intended to:

     •   Provide factual and analytical information;
     •   Monitor compliance;
     •   Measure performance;
     •   Assess the effectiveness and efficiency of programs and operations;
     •   Share best practices; and
     •   Inquire into allegations of waste, fraud, abuse, and mismanagement.

Evaluations are intended to:

     •   Provide in-depth reviews of specific management issues, policies, or programs;
     •   Address Government-wide or multi-agency issues; and
     •   Develop recommendations to streamline operations, enhance data quality, and
         minimize inefficient and ineffective procedures.

The following summaries highlight some of the significant activities that I&E has
engaged in during this six-month reporting period:

IRS Contract Security Guard Workforce Inspection

This project was initiated to determine whether the IRS has provided a reasonable level
of assurance that its contract security guard workforce is suitable for employment at IRS
facilities and whether responsible IRS personnel are qualified to oversee the day-to-day
operations of the security guard contracts assigned to them.

TIGTA found that the IRS generally has controls in place to ensure that security guards
are suitable for employment in IRS facilities. The inspection also found that most
Contracting Officer’s Technical Representatives (COTR) assigned to the guard
contracts were properly appointed and certified. While no systemic issues regarding the
on-site administration of contract security guards exist, the lack of controls in some
areas prevented the IRS from accurately and timely identifying the number of security



                                                        October 1, 2011 – March 31, 2012      43
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


     guards working under IRS contracts. Additionally, COTRs allowed several security
     guards to work in some IRS facilities without escorts before receiving staff-like access
     (the ability for contract employees to enter an IRS-owned or controlled facility without an
     IRS escort), or after re-investigations required to maintain access to IRS facilities were
     overdue. Lastly, in one unique instance, guards hired to escort IRS employees outside
     one Federal building were not subject to normal screening procedures.

     TIGTA recommended that the Director of IRS Physical Security and Emergency
     Preparedness:

         •   Develop, validate, and maintain a comprehensive listing of contract security
             guards;
         •   Require Office of Personnel Management background investigations for all
             contract security guards regardless of the type of service provided;
         •   Develop procedures that require COTRs to obtain and maintain records which
             document that contractors without staff-like access are properly escorted while in
             IRS facilities;
         •   Follow up on the results of requests for new investigations for contractor
             employees;
         •   Remove contractors from duty who fail to provide information required for the
             new investigations; and
         •   Periodically issue memoranda to remind all COTRs to adhere to internal
             procedures related to managing contract security guards.

     IRS management agreed with these recommendations and stated that they have
     initiated or plan to initiate processes designed to improve oversight and provide
     assurance that security guards are suitable for employment in IRS facilities.
     Report Reference No. 2012-IE-R002

     Inspection of the Employee Pre-Screening Process

     This project was initiated to determine if the IRS properly and timely pre-screens
     applicants before they are hired.

     Many IRS employees must have access to sensitive taxpayer information to administer
     the Nation’s tax system. The IRS must be particularly cognizant of hiring only those
     applicants who hold themselves to the highest standards of integrity. The IRS uses
     several controls to deter and detect the abuse of sensitive information. Pre-screening
     applicants and conducting background investigations of those applicants are the initial
     steps the IRS takes to ensure that it meets the highest standards of honesty, integrity,
     and security.

     Reviews at four of nine Employment Operations branch offices revealed that nearly
     77 percent of the cases reviewed (507 of 662) did not have sufficient documentation to
     verify that the Employment Operations offices had completed all of the required pre-
     screening steps before the employee reported for duty. The managers located in the



44   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS


Employment, Talent, and Security Division, who have oversight of Employment Operations,
noted that the documentation that was not included in the employees’ case files could be
obtained from other sources, as needed. However, if this documentation was not located in
the case file, another employee would have to repeat steps that had already been completed
in order to provide the appropriate documentation needed by managers or other third parties
responsible for oversight. Additionally, repeating steps after the employee reports for duty
does not provide evidence that pre-screening steps were completed before the employee’s
enter-on-duty date.

TIGTA recommended that the Human Capital Officer develop requirements and retention
policies to ensure that pre-screening actions are consistently completed and fully
documented.

IRS management agreed to implement this recommendation and stated that they plan
to primarily use electronic files (the CareerConnector Companion 72 and the Automated
Background Investigation System) to record and verify the completion of pre-screening
applicants. Additionally, IRS management plans to enhance the CareerConnector
Companion to improve record-keeping and monitoring capabilities. IRS Management
also issued guidance related to record retention policies for pre-screening actions.
Report Reference No. 2012-IE-R003




72
  The CareerConnector Companion, referred to as “C-Comp,” is a tool used by the IRS to track pre-hire
screening checks.



                                                               October 1, 2011 – March 31, 2012         45
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




46   October 1, 2011 – March 31, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS



              TIGTA’s International Programs
International tax compliance and taxpayer service
issues have emerged as a major focus of tax policy
and administration. Global business is rapidly              The IRS operates in 10
expanding and combating offshore tax evasion is a           foreign countries and two
priority of the IRS Commissioner. The IRS’s                 U.S. territories:
increased emphasis on international tax
administration can be illustrated by its recent             Australia
development of a plan called the “Service-wide
Approach to International Tax Administration,” which        Barbados
was accompanied by a reorganization and a
substantial increase in the size of the Deputy              Canada
Commissioner (International) organization. The plan
is designed to improve voluntary compliance with            China (and Hong Kong)
international tax provisions and to reduce the
international Tax Gap attributable to cross-border          Colombia
transactions.
                                                            France
TIGTA’s international programs continue to work
with the IRS in pursuit of the plan’s objectives to:        Germany
    •    Improve cooperation with treaty partners in        Mexico
         the international community;
    •    Enhance the IRS’s partnership with tax             Panama
         preparers involved in the preparation of
         international/U.S. Territory returns; and          Puerto Rico (U.S. Territory)
    •    Detect and deter financial criminal activity
         and abusive transactions that involve              United Kingdom
         offshore entities and cross-border
         transactions.                                      Virgin Islands (U.S. Territory)

Resources for a more comprehensive approach are
limited, but TIGTA is striving to strategically expand
its oversight model in the international environment through a coordinated program of
international audits, inspections, law enforcement liaison, and outreach.

International Audit Achievements

TIGTA includes international tax administration as part of its annual audit planning
process. However, the amount of work conducted in this area in any given year is
limited by other competing priorities. Recognizing the growing importance of
international tax administration, TIGTA created an International Tax Program Strategy
that laid out a uniform methodology to monitor the IRS’s efforts with respect to
international tax administration. Since the implementation of this strategy, TIGTA has



                                                        October 1, 2011 – March 31, 2012      47
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


     included several reports about international tax administration in its previous
     Semiannual Reports to Congress.

         •   New Legislation Could Affect Filers of the Report of Foreign Bank and
             Financial Accounts, but Potential Issues Are Being Addressed
             (Reference No. 2010-30-125, dated September 9, 2010).
         •   Improvements Are Needed to Verify Refunds to Nonresident Aliens Before
             the Refunds Are Sent Out of the United States
             (Reference No. 2010-40-121, dated September 15, 2010).
         •   Actions Are Being Taken to Address the Impact That International Financial
             Reporting Standards Will Have on Tax Administration
             (Reference No. 2010-30-112, dated September 8, 2010).
         •   Improvements Are Needed to Reduce Erroneous Foreign Earned Income
             Exclusion Claims
             (Reference No. 2010-40-091, dated August 16, 2010).
         •   Procedures Need to Be Developed for Collection Issues Associated With
             Individual Taxpayer Identification Numbers
             (Reference No. 2010-40-040, dated March 29, 2010).
         •   Improvements Are Needed to Ensure the Central Withholding Agreement
             Program Fosters Nonresident Alien Withholding Compliance
             (Reference No. 2011-30-117, dated September 30, 2011).
         •   The 2009 Offshore Voluntary Disclosure Initiative Increased Taxpayer
             Compliance, but Some Improvements Are Needed
             (Reference No. 2011-30-118, dated September 21, 2011).

     International Outreach

     TIGTA’s international outreach will advance its strategic objective of heightening IRS
     integrity awareness among millions of U.S. citizens living abroad in order to provide a
     deterrent effect against waste, fraud, and misconduct within Federal tax administration.
     It will also promote a greater understanding of the importance of a corruption-free IRS.

     During this six-month reporting period, TIGTA has partnered with the U.S. Department
     of State to share TIGTA’s message of combating fraud in Federal tax administration and
     to provide contact information about TIGTA’s Complaint Hotline to the millions of
     taxpayers living in foreign countries, including military and State Department personnel
     stationed overseas. TIGTA and the State Department are working together to make
     TIGTA’s Complaint Hotline information available on over 270 embassy, consulate, and
     other State Department web pages around the globe.




48   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS




Risk Assessment Inspections

The IRS continues to place a high emphasis on effectively administering our Nation’s
Federal tax system as it relates to U.S. taxpayers living overseas, U.S. corporations
doing business abroad, and our interaction with foreign governments pursuant to Tax
Treaties and Tax Information Exchange Agreements. Commensurate with this effort,
TIGTA is seeking to develop a program of risk-assessment inspections aimed at
highlighting challenges confronting the IRS in its attempt to effectively conduct its
international activities and to consistently apply relevant policies and procedures in
those programs.

In coordination with the IRS Tax Attaché and her staff, TIGTA executed the first of these
inspections at the IRS office in Frankfurt, Germany. These inspections are designed to
be repeated over time and across all IRS locations involved in international operations.
The data gathered will subsequently be analyzed for potential trends and other indicators
that will assist IRS management in identifying potential risk areas in their international
operations. These inspections will also allow TIGTA to better focus its limited inspection
resources on those areas that will provide the greatest positive impact.




                                                       October 1, 2011 – March 31, 2012   49
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




50   October 1, 2011 – March 31, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



     American Recovery and Reinvestment Act
                    of 2009
The American Recovery and Reinvestment Act of 2009 (Recovery Act) 73 was enacted
on February 17, 2009. The Recovery Act presented significant challenges to all Federal
agencies as they moved to implement provisions quickly while attempting to minimize
risk and meet increased standards for transparency and accountability. With its 56 tax
provisions (20 related to individual taxpayers and 36 related to business taxpayers), the
Recovery Act poses significant challenges to the IRS as the Nation’s tax collection
agency and administrator of the tax laws.

TIGTA has issued numerous reports related to the IRS’s efforts to implement Recovery
Act tax provisions. For this six-month reporting period, TIGTA issued the following
significant report:

The IRS Disallowed Erroneous First-Time Homebuyer Credits Totaling $1.6
Billion; However, Its Examination Resources Could Have Been Used More
Effectively

Qualifying taxpayers who purchased a home in CY 2008, 2009, or 2010 were able to
take advantage of the First-Time Homebuyer Credit (Homebuyer Credit), a refundable
credit worth up to $8,000. Through July 30, 2011, the IRS reported that it processed
more than 4.3 million claims for the Homebuyer Credit totaling almost $30.4 billion.
During that same time, the IRS completed 495,592 Homebuyer Credit examinations, with
52,170 still to be closed. The purpose of these examinations is to ensure that only
qualified taxpayers receive the Homebuyer Credit. Examining Homebuyer Credit claims
that pose the greatest compliance risk is an effective use of limited IRS resources and
avoids burdening compliant taxpayers with an examination.

The IRS developed a comprehensive strategy to address erroneous claims for the
Homebuyer Credit. While it properly evaluated questionable claims that were selected
for examination, a large number of high-risk claims were not examined and many of the
examinations conducted were unproductive. More specifically, some of the high-risk
claims were never run through the automated filters designed to select claims for
examination. In addition, the IRS methods for determining the highest risk claims were
flawed. TIGTA also identified instances where the IRS exceeded its legal authority in
denying Homebuyer Credits to some taxpayers under 18 years of age.

During the course of the audit, TIGTA made recommendations that resulted in
immediate IRS corrective actions. IRS management modified their methods of
determining high-risk claims and shifted examination resources to more productive
cases. They also agreed to use a method other than post-processing math-error
authority to address claims filed by underage taxpayers.

73
     Pub. L. No. 111-5, 123 Stat. 115.



                                                       October 1, 2011 – March 31, 2012     51
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS


     In addition, TIGTA recommended that the IRS:

         •   Use updated examination results to make adjustments throughout the year,
             which will optimize the overall examination results; and
         •   Ensure that the IRS runs all claims for the Homebuyer Credit against its
             automated examination filters and selects the highest risk cases for post-
             refund examinations.

     IRS management agreed with these recommendations. In their response to the first
     recommendation, IRS management stated that they routinely use prior examination
     results to adjust IRS workloads. Nonetheless, TIGTA found that the IRS did not do this
     consistently in the case of Homebuyer Credit examinations.
     Reference No. 2012-41-013




52   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS



      An Organization That Values Its People
TIGTA’s Inspector General Awards
On October 20, 2011, Inspector General J. Russell George recognized the exemplary
achievements of TIGTA’s employees through the 2011 Inspector General Award
Program. Recipients were recognized for their commitment to excellence in public
service on behalf of TIGTA. The recipients’ accomplishments demonstrate high mission
impact, major contributions to customers and stakeholders, integrity and efficiency, and
significant quantifiable results. There were five individual award recipients and three
group awards from the Office of Audit (Customer Account Data Engine 2 Team,
Improper Payments and Credits Group, and American Opportunity Tax Credit Team);
two group awards from the Office of Investigations (Criminal Intelligence and
Counterterrorism Group and Fraudulent First-Time Homebuyers Credit Investigations
Group); two group awards from the Office of Inspections and Evaluations (Treasury
Directive 74-06 Evaluation Team and Facilities Inspection Team); and one group award
from the Office of Mission Support (Procurement Services). The following are a few
highlights and pictures taken during the ceremony.

Individual Award Recipients




Top row from left to right: Timothy Camus, Deputy Inspector General for Investigations; Randy Silvis,
Deputy Assistant Inspector General for Investigations; Terry Peacock, Assistant Inspector General for
Investigations; and John Fowler, Deputy Assistant Inspector General for Investigations.
Bottom row from left to right: Thomas Black, Director; William Kalb, Assistant Special Agent in Charge;
Sherwood Zimmerman, Assistant Special Agent in Charge; Michelle Brasfield, Assistant Special Agent in
Charge; and Edward Bosak, Special Agent.




                                                                October 1, 2011 – March 31, 2012          53
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS


     Fraudulent First-Time Homebuyers Credit Investigations Group




     From left to right: Joseph Hungate, Principal Deputy Inspector General; Timothy Camus, Deputy
     Inspector General for Investigations; Michelle Brasfield, Assistant Special Agent in Charge; and J. Russell
     George, Inspector General. Not pictured: Aaron McLean, Special Agent.

     Criminal Intelligence and Counterterrorism Group




     Top row from left to right: Timothy Camus, Deputy Inspector General for Investigations; James
     Jackson, Special Agent in Charge; Randy Silvis, Deputy Assistant Inspector General for Investigations;
     John Fowler, Deputy Inspector General for Investigations; and Terry Peacock, Assistant Inspector
     General for Investigations.
     Bottom row from left to right: Nicole Randall, Investigative Analyst; Daniel Mummert, Special Agent;
     Nikki Rawls, Investigative Analyst; Veronica Ferguson, Investigative Analyst; William Seested,
     Investigative Analyst; Jeffery Long, Special Agent; and Christine Cosson, Investigative Analyst.
     Not pictured: Jennifer Franklin, Special Agent.




54   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS


Procurement Services Team




Top row from left to right: Larry Koskinen, Associate Inspector General for Mission Support; Thomas
Roberts, Program Analyst; Matthew Chabak, Program Analyst; Jeffrey Stephenson, Program Analyst; and
Benjamin Trapp, Director.
Bottom row from left to right: Karen Ziegler, Program Analyst; Yvette Taylor, Program Analyst; Olga
Brichto, Program Analyst; and Lolita Hodges, Program Analyst.

Council of the Inspectors General on Integrity and Efficiency Award
On Tuesday, October 18, 2011, more than 85 individuals and groups were recognized
for their outstanding accomplishments at the 14th Annual Inspector General Community
awards ceremony. The Honorable Eric H. Holder Jr., The United States Attorney
General, provided the keynote address at the ceremony hosted by the Council of the
Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is composed of
Inspectors General and Government ethics and law enforcement officials. The
ceremony took place at the Andrew W. Mellon Auditorium, Washington, DC. The
Honorable Jeffrey Zients, CIGIE Executive Chairperson, Deputy Director for
Management and Chief Performance Officer, Office of Management and Budget,
presented the Inspector General community’s most prestigious awards.

Award Recipients

Assistant Special Agent in Charge Sherwood Zimmerman was recognized for his
outstanding achievement during the investigation and prosecution of Kulwant Lasher,
Tarlochan Lasher, and Jaswinder Lasher for bribing an IRS employee.




                                                             October 1, 2011 – March 31, 2012         55
                                                 TIGTA SEMIANNUAL REPORT TO CONGRESS




                            Sherwood Zimmerman, Assistant Special Agent in Charge

     TIGTA’s Returns Processing and Account Services Prisoner Fraud Group received
     recognition for outstanding achievement for their efforts in improving the identification of
     fraud within the IRS.




     From left to right: Carl A. Clinefelter, CIGIE Vice Chair; Deann Baiza, Audit Manager; and the Honorable
     Phyllis K. Fong, CIGIE Chair. Not Pictured: Russell Martin, Director; Karen Fulte, Senior Auditor; and
     Sharla Robinson, Senior Auditor.

     TIGTA Special Agent Edward Bosak was also recognized for his part in the General
     Services Administration Cisco Systems Qui Tam Settlement Team. The team was
     recognized for its outstanding collaboration by multiple agencies resulting in the



56   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS


successful settlement with Cisco Systems that involved pricing irregularities that
compromised the integrity of Government procurement. Mark Anderson and Kevin
Riley of I&E received CIGIE awards for their participation on the Interagency
Inspections and Evaluations Survey Team and Joan Bonomi, of OA, received the Barry
R. Snyder Joint Award.

National Association of State Boards of Accountancy Certification

The Office of Audit has successfully completed the requirements as a Learning Provider
for both Group Live and Group Internet-Based Training and is now listed on the National
Registry as being recognized by the National Association of State Boards of
Accountancy (NASBA). Learning providers become listed among quality Continuing
Professional Education (CPE) program sponsors that have been certified to conduct
programs in compliance with the requirements of State Accountancy Boards and the
uniform standards for continuing education in the accounting profession.

Developed in 1990, the National Registry of CPE Sponsors is a program offered by the
NASBA to recognize CPE program sponsors who provide programs in accordance with
nationally recognized standards. Many State Boards of Accountancy require CPAs to
earn required CPE credits through companies approved on the National Registry of
CPE Sponsors. Additionally, in December 2011, NASBA and the National Registry of
CPE Sponsors were approved as a qualified accrediting organization by the IRS as part
of the IRS Registered Tax Return Preparer program. This designation allows members
of the National Registry that want to offer continuing education programs to Registered
Tax Return Preparers to use a simple IRS registration process to become a qualified
continuing education provider for that program.

Currently, over 1,700 program sponsors hold approved Registry sponsor status after
demonstrating compliance with the Statement on Standards for CPE Programs
approved jointly by the American Institute of Certified Public Accountants and NASBA.
Within the Registry, there are 11 other Inspectors General offices recognized as
Learning Providers for Group Live Sessions. TIGTA is the only Inspector General office
that is recognized as a Learning Provider for both Group Live and Group Internet-
Based Training. Only a limited number of organizations have completed the
requirements for Group Internet-Based Training. TIGTA now joins the likes of Franklin
Covey, Wells Fargo, MIS Training Institute, and the National Society of Accountants
with this distinguished accomplishment.

TIGTA Academy Reaccredited

On November 17, 2011, The Federal Law Enforcement Training Accreditation (FLETA)
Board reaccredited TIGTA’s Training Academy, which trains all TIGTA law enforcement
personnel.

The FLETA Board is nationally recognized by Federal law enforcement agencies, as
well as stakeholders in law enforcement training. It is the Board’s goal to advance the



                                                       October 1, 2011 – March 31, 2012   57
                                                 TIGTA SEMIANNUAL REPORT TO CONGRESS


     Federal law enforcement community with each accreditation, and the Board has now
     awarded 48 program accreditations and 13 academy accreditations.

     To achieve accreditation, agencies submit to a rigorous independent review of their
     academy and/or program to ensure compliance with the 52 FLETA Program Standards
     in the areas of: Program Administration, Training Staff, Training Development, and
     Training Delivery, with an additional 20 standards for Academies. Accreditation is a
     cyclical process occurring every three years.




     From left to right: Martin Kenney, Deputy Special Agent in Charge; Michael Radetic, Assistant Special
     Agent in Charge; Kay Arthur, Program Analyst/Accreditation Manager; Gary Mitchell, Executive Director
     of FLETA; Michael Delgado, Assistant Inspector General for Investigations; Donald Webb, FLETA Board
     Chairman – DEA; Jacquelyn Ellison, Special Agent; Marvin Weindorff, Special Agent; and Annette
     Scanlon, Training Specialist.




58   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS



                      Congressional Testimony
During this reporting period, Inspector General J. Russell George testified before
Congress on three occasions. The following are summaries of his testimony.

On November 4, 2011, Mr. George testified before the House Committee on Oversight
and Government Reform, Subcommittee on Government Organization, Efficiency and
Financial Management on “Identity Theft and Tax Fraud.” Mr. George noted that there
are two primary types of identity theft that relate to tax administration: the first type
involves an individual using another person’s name and/or SSN to file a fraudulent tax
return to generate a tax refund, which is referred to as “tax fraud identity theft.” The
second type involves using another person’s identity (e.g., name, SSN, or both) to
obtain employment, which is referred to as “employment-related identity theft.”

Since 2008, the number of tax-related identity theft incidents impacting tax administration
has grown significantly. Although the IRS acknowledges that it does not know for certain
the number of open or closed identity theft cases, as of August 31, 2011, IRS incident
tracking reports indicated that 582,736 taxpayers were affected by identity theft in CY
2011. In CY 2008, the IRS reported 254,079 taxpayers were affected.

TIGTA is currently evaluating whether the IRS is effectively providing assistance to
victims of identity theft. 74 To date, auditors have analyzed identity theft cases, reviewed
all significant guidance and procedures dealing with identity theft, and conducted
interviews with more than 200 IRS employees who work identity theft issues.

TIGTA’s preliminary observations are that the IRS is not effectively providing assistance
to victims of identity theft and its processes are not adequate to communicate identity
theft procedures to taxpayers. This results in increased burden for the victims of identity
theft.

The IRS needs a better process to identify and respond whenever tax fraud occurs as a
result of identity theft. While the IRS has undertaken important steps and initiatives to
prevent the occurrence of identity theft and associated tax fraud, additional controls
could help to minimize or prevent future incidences. TIGTA continues to address this
escalating problem through audits and investigations that assist the IRS in its efforts to
strengthen critical programs, processes, and controls needed to protect sensitive
taxpayer data. Moreover, TIGTA believes that the escalating rate of identity theft across
the Nation warrants additional safeguards and response capabilities that will enable the
IRS to avoid unacceptable future losses due to the consequences of tax fraud
perpetrated through identity theft.




74
   TIGTA, Audit No. 201140042, Effectiveness of Assistance Provided to Victims of Identity Theft
(planned report issuance in May 2012).



                                                                 October 1, 2011 – March 31, 2012   59
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS


     On November 15, 2011, Mr. George testified before the House Committee on Ways and
     Means, Subcommittee on Oversight during its hearing on “Implementation and
     Effectiveness of the Small Business Health Care Tax Credit.” The Patient Protection and
     Affordable Care Act 75 amended the Internal Revenue Code to provide the Small
     Business Health Care Tax Credit (Credit). This is a new business credit for employee
     health insurance expenses of small businesses and certain tax-exempt organizations.
     The Congressional Budget Office estimated the Credit would cost $37 billion over 10
     years.

     Despite the IRS’s efforts to inform 4.4 million taxpayers who could potentially qualify for
     the Credit, the volume of claims for the Credit has been low. The Credit was designed
     to encourage small employers to offer health care insurance. However, through mid-
     October 2011, the IRS reported that 309,000 taxpayers (including the tax-exempt
     taxpayers previously referred to) had claimed the Credit for a total amount of $416
     million. 76 This is substantially lower than the Congressional Budget Office estimate that
     taxpayers would claim up to $2 billion for the Credit for Tax Year 2010.

     In TIGTA’s report regarding the Small Business Health Care Tax Credit, 77 examples of
     specific errors taxpayers were making when claiming the Credit were provided. These
     errors are beyond the IRS’s current authority to correct through math-error processes.
     However, the errors could be addressed through legislation providing targeted math-
     error authority. Math-error authority would allow the IRS to improve compliance and
     avoid burdensome audits by correcting certain errors, or by contacting the taxpayer
     during processing but prior to allowing the Credit or paying refunds on potentially
     erroneous returns.

     IRS management agreed that math-error authority is an important compliance tool and
     will explore with the Department of the Treasury whether math-error authority is
     appropriate for this Credit. The IRS agreed that it is beneficial to address potential
     compliance issues as early in the process as possible and has developed procedures to
     examine questionable returns prior to the issuance of refunds.

     On March 7, 2012, Mr. George testified before the House Committee on Appropriations,
     Subcommittee on Financial Services and General Government on its “Budget Hearing –
     Office of Treasury IG and Office of Treasury IG for Tax Administration.” Mr. George
     noted that the IRS is the largest component of the Department of the Treasury and has
     primary responsibility for administering the Federal tax system. The IRS strives to
     enforce the tax laws fairly and efficiently while balancing service and education to
     promote voluntary compliance and reduce taxpayer burden. To achieve these goals,
     the proposed FY 2013 IRS budget requests appropriated resources of $12.8 billion. 78
     75
        Pub. L. No. 111-148, 124 Stat. 119, § 1421 (2010).
     76
        Internal Revenue Service statistics on credits claimed under I.R.C. § 45R.
     77
        TIGTA, Ref. No. 2011-40-103, Affordable Care Act: Efforts to Implement the Small Business Health
     Care Tax Credit Were Mostly Successful, but Some Improvements Are Needed (September 2011).
     78
        The FY 2013 budget request also includes approximately $135 million from reimbursable programs,
     $218 million from user fees, and $239 million in available multi-year/no-year funds for a total amount of
     $13.4 billion in available resources.



60   October 1, 2011 – March 31, 2012
      TIGTA SEMIANNUAL REPORT TO CONGRESS


The total appropriations amount is an increase of $945 million, or approximately eight
percent, more than the FY 2012 enacted level of approximately $11.8 billion. The
budget request includes a net staffing increase of more than 4,500 full-time equivalents
(FTE), 79 to a total of 95,257 appropriated FTEs. However, the FY 2013 increase
represents only approximately 700 additional employees over the FY 2011 enacted
level because of the budget cuts the IRS sustained in FY 2012.

The President’s FY 2013 $153,834,000 budget request for TIGTA strikes a balance in
addressing the critical needs of the Nation’s system of tax administration. The FY 2013
request represents an overall increase of 1.41 percent above the FY 2012 enacted
budget and includes $324,000 needed to support the Council of the Inspectors General
on Integrity and Efficiency. However, TIGTA’s budget request reduces existing
programs by $2,306,000 below the FY 2012 enacted level. These cuts reflect the tough
choices that the Nation currently faces. TIGTA is reviewing all of its functions in an
effort to reduce only those programs that will have the smallest impact on its critical
mission.

The FY 2013 budget request includes an additional $4,500,000 for 29 FTEs for
oversight of the IRS’s implementation of the Affordable Care Act tax provisions. This
funding will support auditors, evaluators, and special agents specifically to provide
oversight of Affordable Care Act issues. The oversight of the implementation of this law
is a significant priority for TIGTA.

As such, TIGTA has developed a multi-year oversight strategy that includes audit,
evaluations, and investigative resources to assess, and to proactively detect and deter
efforts to impede, the IRS’s implementation of the Act.




79
  A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of
compensable days in a particular fiscal year.



                                                                October 1, 2011 – March 31, 2012   61
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




62   October 1, 2011 – March 31, 2012
           TIGTA SEMIANNUAL REPORT TO CONGRESS



                             Audit Statistical Reports
                       Reports With Questioned Costs
 TIGTA issued two audit reports with questioned costs during this reporting period. 80
 The phrase “questioned costs” means costs that are questioned because of:

       •    An alleged violation of a provision of a law, regulation, contract, or other
            requirement governing the expenditure of funds;
       •    A finding, at the time of the audit, that such cost is not supported by adequate
            documentation (an unsupported cost); or
       •    A finding that expenditure of funds for the intended purpose is unnecessary or
            unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the
 Government.

                                        Reports With Questioned Costs
                                                                        Questioned       Unsupported
                Report Category                         Number             Costs 81          Costs
                                                                      (in thousands)    (in thousands)
1. Reports with no management decision at
   the beginning of the reporting period                    8             $193,480             $82,147
2. Reports issued during the reporting period               2               $7,432                  $0
3. Subtotals (Item 1 plus Item 2)                          10             $200,912             $82,147
4. Reports for which a management decision
   was made during the reporting period
   a. Value of disallowed costs                             0                   $0                  $0
   b. Value of costs not disallowed                         0                   $0                  $0
5. Reports with no management decision
   at the end of the reporting period (Item 3
   minus Item 4)                                           10             $200,912             $82,147
6. Reports with no management decision
   within six months of issuance                            8             $193,480             $82,147




 80
      See Appendix II for identification of audit reports involved.
 81
      “Questioned costs” includes “unsupported costs.”



                                                                      October 1, 2011 – March 31, 2012   63
                                                      TIGTA SEMIANNUAL REPORT TO CONGRESS



      Reports With Recommendations That Funds
                 Be Put to Better Use
      TIGTA issued three audit reports during this reporting period with the recommendation
      that funds be put to better use. 82 The phrase “recommendation that funds be put to
      better use” means funds could be used more efficiently if management took actions to
      implement and complete the recommendation, including:

           •     Reductions in outlays;
           •     Deobligations of funds from programs or operations;
           •     Costs not incurred by implementing recommended improvements related to
                 operations;
           •     Avoidance of unnecessary expenditures noted in pre-award reviews of contract
                 agreements;
           •     Prevention of erroneous payment of refundable credits, e.g., Earned Income Tax
                 Credit; or
           •     Any other savings that are specifically identified.

      The phrase “management decision” means the evaluation by management of the
      findings and recommendations included in an audit report, and the issuance of a final
      decision concerning its response to such findings and recommendations, including
      actions concluded to be necessary.

                        Reports With Recommendations That Funds Be Put to Better Use
                                                                                                   Amount
                                 Report Category                                Number
                                                                                               (in thousands)
     1. Reports with no management decision at the beginning of the
        reporting period                                                            0                     $0
     2. Reports issued during the reporting period                                  3               $123,692
     3. Subtotals (Item 1 plus Item 2)                                              3               $123,692
     4. Reports for which a management decision was made during the
                         83
        reporting period
        a. Value of recommendations to which management agreed
               i. Based on proposed management action                               3               $31,945
               ii. Based on proposed legislative action                             0                    $0
        b. Value of recommendations to which management did not agree               1               $91,747
     5. Reports with no management decision at the end of the
        reporting period (Item 3 minus Item 4)                                      0                    $0
     6. Reports with no management decision within six months of
        issuance                                                                    0                    $0


      82
        See Appendix II for identification of audit reports involved.
      83
        Includes one report in which the IRS partially agreed with the values associated with the
      recommendations.



64   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



Reports With Additional Quantifiable Impact
          on Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has
identified measures that demonstrate the value of audit recommendations to tax
administration and business operations. These issues are of interest to IRS and the
Department of the Treasury executives, Congress, and the taxpaying public, and are
expressed in quantifiable terms to provide further insight into the value and potential
impact of the Office of Audit’s products and services. Including this information also
promotes adherence to the intent and spirit of the Government Performance and
Results Act.

Definitions of these additional measures are:

Increased Revenue: Assessment or collection of additional taxes.

Revenue Protection: Proper denial of claims for refunds, including recommendations
that prevent erroneous refunds or efforts to defraud the tax system.

Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on contacts, record keeping, preparation, or costs
to comply with tax laws, regulations, and IRS policies and procedures.

Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining
the accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.

Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).

Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce cost while maintaining or improving the effectiveness of specific programs;
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.

Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and
processing thereof, used by the organization to plan, monitor, and report on its
financial and operational activities. This measure will often be expressed as an
absolute value, i.e., without regard to whether a number is positive or negative, of


                                                        October 1, 2011 – March 31, 2012   65
                                                       TIGTA SEMIANNUAL REPORT TO CONGRESS


     overstatements or understatements of amounts recorded on the organization’s
     documents or systems.

     Protection of Resources: Safeguarding human and capital assets, used by or in the
     custody of the organization, from inadvertent or malicious injury, theft, destruction, loss,
     misuse, overpayment, or degradation.

     The number of taxpayer accounts and dollar values shown in the following chart
     were derived from analyses of historical data, and are thus considered potential
     barometers of the impact of audit recommendations. Actual results will vary
     depending on the timing and extent of management’s implementation of the
     corresponding corrective actions, and the number of accounts or subsequent
     business activities affected as of the dates of implementation. Also, a report may
     have issues that affect more than one outcome measure category.


                  Reports With Additional Quantifiable Impact on Tax Administration
                                                              Number of
                                            Number of                           Dollar Value
             Outcome Measure Category                          Taxpayer
                                             Reports 84        Accounts
                                                                              (in thousands)

           Increased Revenue                                1                  0       $98,500

           Revenue Protection                               1                  0         $543

           Reduction of Burden on Taxpayers                 3             302,622            $0
           Taxpayer Rights and Entitlements
           at Risk                                          1                477         $285

           Taxpayer Privacy and Security                    0                  0             $0

           Inefficient Use of Resources                     0                  0             $0
           Reliability of Management
           Information                                      6             613,747       $6,105

           Protection of Resources                          0                  0             $0


     Management did not agree with the outcome measures in the following reports:

           •    Reliability of Management Information: Reference Numbers 2012-40-008 and
                2012-30-026.

     The following report contained quantifiable impacts other than the number of taxpayer
     accounts and dollar value:

           •    Reliability of Management Information: Reference Number 2012-30-026.


     84
          See Appendix II for identification of audit reports involved.



66   October 1, 2011 – March 31, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



                Investigations Statistical Reports
                          Significant Investigative Achievements
                                     October 1, 2011 – March 31, 2012

      Complaints/Allegations Received by TIGTA

          Complaints against IRS Employees                                                    2,123
          Complaints against Non-Employees                                                    2,010
         Total Complaints/Allegations                                                         4,133

      Status of Complaints/Allegations Received by TIGTA
          Investigations Initiated                                                            1,374
                                     85
          In Process within TIGTA                                                               318
          Referred to IRS for Action                                                            322
          Referred to IRS for Information Only                                                  712
                                          86
          Referred to a Non-IRS Entity                                                            4
          Closed with No Referral                                                             1,009
          Closed with All Actions Completed                                                     326
         Total Complaints                                                                     4,065

      Investigations Opened and Closed
          Total Investigations Opened                                                         1,696
          Total Investigations Closed                                                         1,632

      Financial Accomplishments
          Embezzlement/Theft Funds Recovered                                            $1,008,217
          Court Ordered Fines, Penalties, and Restitution                               $5,748,826
          Out-of-Court Settlements                                                                0

         Total Financial Accomplishments                                                $6,757,043




85
     Complaints for which final determination had not been made at the end of the reporting period.
86
     A non-IRS entity includes other law enforcement entities or Federal agencies.




                                                                    October 1, 2011 – March 31, 2012   67
                                                       TIGTA SEMIANNUAL REPORT TO CONGRESS



                                       Status of Closed Criminal Investigations
                                      87                         Employee        Non-Employee             Total
              Criminal Referrals
              Referred – Accepted for Prosecution                      26                   46                72
              Referred – Declined for Prosecution                     284                  196               480
              Referred – Pending Prosecutorial
              Decision                                                 21                   59                80
              Total Criminal Referrals                                331                  301               632
              No Referral                                             409                  591             1,000


                                               Criminal Dispositions 88
                                                                Employee         Non-Employee              Total
          Guilty                                                     12                    40                 52
          Nolo Contendere (no contest)                                 2                    0                  2
          Pre-trial Diversion                                          3                    0                  3
                                 89
          Deferred Prosecution                                         2                    2                  4
          Not Guilty                                                   0                    0                  0
                       90
          Dismissed                                                    2                    5                  7
          Total Criminal Dispositions                                21                    47                 68


                       Administrative Dispositions on Closed TIGTA Investigations 91
                                                                                                           Total
          Removed, Terminated or Other                                                                       315
          Suspended/Reduction in Grade                                                                       108
          Oral or Written Reprimand/Admonishment                                                             115
          Closed – No Action Taken                                                                            72
          Clearance Letter Issued                                                                             76
          Employee Resigned Prior to Adjudication                                                             68
                                                        92
          Non-Internal Revenue Service Employee Actions                                                      456
          Total Administrative Dispositions                                                                1,210


     87
        Criminal referrals include both Federal and State dispositions.
     88
        Final criminal dispositions during the reporting period. This data may pertain to investigations referred
     criminally in previous reporting periods and do not necessarily relate to the investigations referred criminally in
     the Status of Closed Criminal Investigations table above.
     89
        Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and
     complies with certain conditions imposed by the court. Upon the defendant’s completion of the
     conditions, the court dismisses the case. If the defendant fails to fully comply, the court reinstates
     prosecution of the charge.
     90
        Court dismissed charges.
     91
        Final administrative dispositions during the reporting period. This data may pertain to investigations
     referred administratively in prior reporting periods and does not necessarily relate to the investigations
     closed in the Investigations Opened and Closed table.
     92
        Administrative actions taken by the IRS against non-IRS employees.



68   October 1, 2011 – March 31, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS



                                               Appendix I
             Statistical Reports - Other
    Audit Reports With Significant Unimplemented
                 Corrective Actions
  The Inspector General Act of 1978 requires the identification of significant recommendations
  described in previous semiannual reports for which corrective actions have not been
  completed. The following list is based on information from the IRS Office of Management
  Control’s automated tracking system maintained by the Department of the Treasury’s
  management officials.


Reference        IRS               Issued        Projected      Report Title and Recommendation Summary
 Number       Management                        Completion    (F = Finding Number (No.), R = Recommendation No.,
               Challenge                           Date                          P = Plan No.)
                 Area
2007-10-082     Tax Exempt         May 2007                  Screening Tax-Exempt Organizations Filing
               Organizations                                 Information Provides Minimal Assurance That
                                                             Potential Terrorist-Related Activities Are Identified

                                                 06/15/13    F-1, R-1, P-1. Develop and implement a long-term
                                                             strategy to automate the matching of Forms 1023,
                                                             Applications for Recognition of Exemption Under Section
                                                             501(c)(3) of the Internal Revenue Code, and 990, Returns
                                                             of Organization Exempt From Income Tax, information
                                                             against a consolidated terrorist watch list to initially identify
                                                             potential terrorist activities related to tax-exempt
                                                             organizations.
2008-40-167   Tax Compliance        August                   The Withholding Compliance Program Is Improving
                 Initiatives         2008                    Taxpayer Compliance; However, Additional
                                                             Enforcement Actions Are Needed

                                                 12/15/13    F-2, R-1, P-1. Create a single data entry point for
                                                             processing Withholding Compliance Program cases and
                                                             provide lock-in-letter issuance authority to other IRS
                                                             functions.
2009-10-107       Improving        July 2009                 Controls Over Real Property Management Have
              Performance and                                Improved; However, Additional Efforts Are Needed to
              Financial Data for                             Address Planned Staffing Increases
                Program and
              Budget Decisions                   06/15/13    F-1, R-2, P-1. Develop a comprehensive national policy
                                                             regarding workstation sharing for the flexi-place program
                                                             and the ratio of flexi-place employees to a shared
                                                             workstation.
                                                 01/15/14    F-1, R-4, P-1. Develop procedures requiring that building
                                                             level projected space needs assessments include
                                                             consideration of the impact of workstation sharing and be
                                                             periodically reconciled in total to agency-wide projected
                                                             staffing levels.




                                                                    October 1, 2011 – March 31, 2012                  69
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS



     Reference        IRS                Issued      Projected      Report Title and Recommendation Summary
      Number       Management                       Completion    (F = Finding Number (No.), R = Recommendation No.,
                    Challenge                          Date                          P = Plan No.)
                      Area
     2009-10-121       Improving        September                The Taxpayer Advocate Service Should Reevaluate
                   Performance and        2009                   the Roles of Its Staff and Improve the Administration
                   Financial Data for                            of the Taxpayer Advocacy Panel
                     Program and
                   Budget Decisions                  12/15/12    F-2, R-1, P-1. Reevaluate the roles of the staff assigned
                                                                 to assist the Panel and establish guidance to ensure that
                                                                 the Panel functions independently.
     2009-40-130      Processing        September                Repeated Efforts to Modernize Paper Tax Return
                      Returns and         2009                   Processing Have Been Unsuccessful; However,
                   Implementing Tax                              Actions Can Be Taken to Increase Electronic Filing
                     Law Changes                                 and Reduce Processing Costs
                     During the Tax
                     Filing Season                   02/15/14    F-1, R-2, P-1. Refocus the Modernized Submission
                                                                 Processing Concept to include implementing a process to
                                                                 convert paper-filed tax returns prepared by individuals
                                                                 using a tax preparation software package into an
                                                                 electronic format.
     2010-40-005   Providing Quality    December                 Individual Taxpayer Identification Numbers Are Being
                   Taxpayer Service       2009                   Issued Without Sufficient Supporting Documentation

                                                     08/15/12    F-3, R-1, P-1. Ensure that the data on the Real-Time
                                                                 System are accurate and validate the records that indicate
                                                                 an agent submitted the application to ensure that the
                                                                 Individual Taxpayer Identification Number Program has
                                                                 accurate and reliable data to oversee the Program.
                                                     08/15/12    F-3, R-2, P-1. Develop procedures and internal controls to
                                                                 monitor the Real-Time System to ensure that information
                                                                 entered is accurate.
     2010-20-027      Taxpayer           March                   Additional Security Is Needed For Access to the
                    Protection and       2010                    Registered User Portal
                        Rights
                                                     09/15/12    F-1, R-1, P-1. Require suitability checks on delegated
                                                                 users who e-file tax returns or access the e-Services
                                                                 incentive products and disable the principal consent
                                                                 feature on e-Services which allows a user to propagate his
                                                                 or her privileges to other users.
                                                     09/15/12    F-1, R-3, P-1. Enhance the e-file application on the Third
                                                                 Party Data Store to post the complete results of the
                                                                 Automated Suitability Analysis Program’s spouse tax
                                                                 compliance check.
                                                     09/15/12    F-1, R-5, P-1. Make passwords more difficult to guess by
                                                                 unauthorized individuals and decrease the use of SSNs as
                                                                 usernames.
                                                     09/15/12    F-1, R-6, P-1. Implement a control to allow users to
                                                                 answer a series of challenge questions to unlock their
                                                                 accounts.




70    October 1, 2011 – March 31, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS




Reference         IRS               Issued       Projected      Report Title and Recommendation Summary
 Number        Management                       Completion    (F = Finding Number (No.), R = Recommendation No.,
                Challenge                          Date                          P = Plan No.)
                  Area
2010-30-032       Taxpayer           March                   Collection Alternatives Were Available to
                 Compliance          2010                    Economically Distressed Taxpayers, but Some New
                  Initiatives                                Processes Need Improvement

                                                 09/15/12    F-1, R-1, P-1, P-2. Submit a request to revise the
                                                             computer programming to allow taxpayers only one
                                                             additional automatic skip per 12-month period and include
                                                             only individual taxpayers in the processing routine.
2010-40-043       Taxpayer           March                   A Service-wide Strategy Is Needed to Address
                 Compliance          2010                    Growing Noncompliance With Individual Retirement
                  Initiatives                                Account Contribution and Distribution Requirements

                                                 10/15/12    F-1, R-1, P-1. Ensure that a Service-wide strategy is
                                                             developed to address retirement provision noncompliance.

2010-40-045   Security of the IRS    March                   Telephone Authentication Practices Need
                                     2010                    Improvement to Better Prevent Unauthorized
                                                             Disclosures

                                                 07/15/14    F-3, R-1, P-1. Incorporate available technology to
                                                             authenticate callers in the Queue as part of the
                                                             development of the Authentication Retention Project.

2010-20-044    Modernization of     May 2010                 Implementing Best Practices and Additional Controls
                  the IRS                                    Can Improve Data Center Energy Efficiency and the
                                                             Environmental and Energy Program

                                                 05/15/12    F-1, R-2, P-1. Ensure that information technology
                                                             equipment energy use is measured in order to determine
                                                             the energy efficiency and savings from implementing
                                                             energy improvements.
                                                 11/15/14    F-1, R-5, P-1. Ensure that energy audits are performed at
                                                             the data centers.
2010-20-056    Modernization of     June 2010                Additional Efforts Are Needed to Implement the
                  the IRS                                    Electronics Stewardship Program and Maximize the
                                                             Energy Efficiency of Desktop Computer Equipment

                                                 04/01/12    F-2, R-2, P-1. Develop a tracking system to support the
                                                             ongoing review of IRS efforts in acquiring electronic
                                                             products of which at least 95 percent are Electronic
                                                             Product Environmental Assessment Tool-registered.




                                                                   October 1, 2011 – March 31, 2012             71
                                                      TIGTA SEMIANNUAL REPORT TO CONGRESS



     Reference         IRS                Issued      Projected      Report Title and Recommendation Summary
      Number        Management                       Completion    (F = Finding Number (No.), R = Recommendation No.,
                     Challenge                          Date                          P = Plan No.)
                       Area
     2010-30-061       Taxpayer          June 2010                Plans Exist to Engage the Tax Preparer Community in
                      Compliance                                  Reducing the Tax Gap; However, Enhancements Are
                       Initiatives                                Needed

                                                      01/15/14    F-1, R-1, P-1. Update the existing IRS Strategic Plan and
                                                                  ensure that strategic plans have all of the information in
                                                                  the plans as required by the Government Performance
                                                                  and Results Act of 1993 and Office of Management and
                                                                  Budget Circular A-11 (Preparation, Submission, and
                                                                  Execution of the Budget).
                                                      01/15/14    F-2, R-1, P-1. Define and include in the IRS Strategic
                                                                  Plan sufficient measures that will provide data that can be
                                                                  used to monitor the IRS’s efforts to achieve objectives
                                                                  aimed at strengthening partnerships with tax practitioners
                                                                  and paid preparers.
     2010-20-084   Security of the IRS    August                  More Actions Are Needed to Correct the Security
                                           2010                   Roles and Responsibilities Portion of the Computer
                                                                  Security Material Weakness

                                                      08/01/12    F-1, R-1, P-1. Update the Internal Revenue Manual (IRM)
                                                                  to include all information technology security roles in
                                                                  existence at the IRS and the related responsibilities for
                                                                  each of these roles; establish recurring processes and
                                                                  communications to ensure that security roles and
                                                                  responsibilities in the IRM are periodically reviewed and
                                                                  updated and alignment between the IRM and the training
                                                                  curriculum is maintained; and establish a process to
                                                                  periodically collect, update, and review security role-
                                                                  related procedures and guidelines to ensure that day-to-
                                                                  day procedures align with current IRS policy.
                                                      10/15/12    F-2, R-1, P-1. Develop an effective and repeatable
                                                                  method to identify all IRS and contract employees
                                                                  performing in established information technology security
                                                                  roles; include all IRS and contract employees performing
                                                                  in information technology security roles in the population
                                                                  for potential selection in the compliance assessments; and
                                                                  develop adequate procedures to validate compliance with
                                                                  current security role-related responsibilities through
                                                                  compliance assessments that incorporate supporting
                                                                  evidence of proper execution of assigned responsibilities.
                                                      09/30/12    F-3, R-1, P-1. Ensure that adequate and accurate metrics
                                                                  are established that assess progress and can be analyzed
                                                                  to develop actions to further improve implementation of
                                                                  security roles and responsibilities policy.
     2010-30-104       Taxpayer          September                Currency Report Data Can Be a Good Source for Audit
                      Compliance           2010                   Leads
                       Initiatives
                                                      06/15/13    F-1, R-1, P-1. Explore the feasibility of making greater
                                                                  use of Currency Transaction Reports to pursue additional
                                                                  nonfilers and underreporters for audit.




72    October 1, 2011 – March 31, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS




Reference        IRS               Issued      Projected        Report Title and Recommendation Summary
 Number       Management                      Completion      (F = Finding Number (No.), R = Recommendation No.,
               Challenge                         Date                            P = Plan No.)
                 Area
2010-40-108   Providing Quality   September                  Toll-Free Telephone Access Exceeded Expectations,
              Taxpayer Service      2010                     But Access for Hearing- and Speech-Impaired
                                                             Taxpayers Could Be Improved

                                                01/15/13     F-1, R-1, P-1. Revise the various taxpayer instructions,
                                                             including notices, for calling the IRS to clearly explain that
                                                             the Tele-Typewriter/Telecommunications Device
                                                             (TTY/TDD) number is for hearing- and speech-impaired
                                                             individuals.
2010-40-121      Taxpayer         September                  Improvements Are Needed to Verify Refunds to
                Compliance          2010                     Nonresident Aliens Before the Refunds Are Sent Out
                 Initiatives                                 of the United States

                                                06/15/12     F-1, R-3, P-1. Determine whether it would be feasible to
                                                             require payers issuing multiple Forms 1042-S, Foreign
                                                             Person’s U.S. Source Income Subject to Withholding, to
                                                             issue a single summary Form 1042-S at the end of the
                                                             calendar year to simplify reporting for the United States
                                                             business and third-party payer and decrease taxpayer
                                                             burden.
                                                09/30/12     F-2, R-1, P-1. Use the Foreign Country Codes on Form
                                                             1040NR, U.S. Nonresident Alien Income Tax Return, to
                                                             ensure that the correct tax rate has been applied.
                                                06/15/12     F-3, R-2, P-1. Clarify instructions on what constitutes
                                                             United States source income in United States Tax Guide
                                                             for Aliens (Publication 519) and Withholding of Tax on
                                                             Nonresident Aliens and Foreign Entities (Publication 515)
                                                             in regard to income from multi-level marketing companies.
2010-40-127      Taxpayer         September                  It Will Take Years to Implement the Return Preparer
                Compliance          2010                     Program and to Realize Its Impact
                 Initiatives
                                                06/15/12     F-1, R-1, P-1. Provide sufficient resources to verify
                                                             professional credentials for all attorneys and Certified
                                                             Public Accountants applying for a Preparer Tax
                                                             Identification Number (PTIN).
                                              P1: 04/15/13   F-1, R-2, P-1, P-2. Establish controls to ensure that PTIN
                                              P2: 09/15/12   applicants with domestic addresses are United States
                                                             citizens or legal aliens, and the SSN of the PTIN applicant
                                                             is not the SSN of a deceased person.
                                                09/15/12     F-1, R-3, P-1. Complete the study comparing the four
                                                             preparer programs to gain an understanding of the basis
                                                             for the requirements and if they should apply to each
                                                             program; to ensure consistencies in the requirements and
                                                             suitability testing among the programs; and to identify any
                                                             overlaps, including user fees, among the programs.




                                                                    October 1, 2011 – March 31, 2012                73
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS



     Reference         IRS               Issued      Projected      Report Title and Recommendation Summary
      Number        Management                      Completion    (F = Finding Number (No.), R = Recommendation No.,
                     Challenge                         Date                          P = Plan No.)
                       Area
     2011-40-014       Taxpayer          January                 The Income Verification Express Services Program
                     Protection and       2011                   Needs Improvements to Better Protect Tax Return
                         Rights                                  Information

                                                     01/15/13    F-1, R-1, P-1. Develop and enforce minimum
                                                                 requirements for the Income Verification Express Services
                                                                 (IVES) Program that would help to ensure that participants
                                                                 are suitable to have a working relationship with the IRS
                                                                 and receive taxpayer information from the IVES Program.
                                                     09/15/12    F-1, R-3, P-1. Within one year of revising Form 13803,
                                                                 Income Verification Express Services (IVES) Application,
                                                                 contact and obtain a completed Form 13803 from all
                                                                 current IVES Program participants.
     2011-20-012   Security of the IRS   February                Additional Security Is Needed for the Taxpayer Secure
                                          2011                   E-mail Program

                                                     07/01/12    F-1, R-1, P-1. Continue the acquisition of a data leakage
                                                                 prevention system to ensure full deployment by April 2012.
     2011-40-023    Erroneous and        February                Reduction Targets and Strategies Have Not Been
                       Improper           2011                   Established to Prevent the Issuance of Billions of
                    Payments and                                 Dollars in Improper Earned Income Tax Credit
                        Credits                                  Payments Each Year

                                                     09/15/13    F-1, R-1, P-1. Establish quantifiable reduction targets and
                                                                 strategies to meet those targets.
                                                     09/15/13    F-2, R-1, P-1. Use the National Research Program
                                                                 sample to estimate instances where the IRS incorrectly
                                                                 pays less in EITC than the taxpayer claims
                                                                 (underpayments).
     2011-30-020       Taxpayer           March                  Taxpayer Payments Were Improperly Transferred to
                     Protection and       2011                   the Excess Collection File
                         Rights
                                                     06/15/12    F-1, R-2, P-1. Request revisions to Form 8758, Excess
                                                                 Collections File Addition, to include a dedicated line for
                                                                 managerial approval (signature) and date for all transfers
                                                                 of $100,000 or more.
                                                     01/15/13    F-2, R-1, P-1. Request programming changes to
                                                                 systemically issue Letter 2765C when taxpayers submit
                                                                 payments after the Assessment Statute Expiration Date in
                                                                 advance of an examination adjustment or with an
                                                                 amended return.
                                                     09/15/12    F-2, R-2, P-1. Request revisions to Letter 2765C to clarify
                                                                 how to file a claim for refund and include Form 843, Claim
                                                                 for Refund and Request for Abatement, when Letter
                                                                 2765C is sent to the taxpayers.




74    October 1, 2011 – March 31, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS




Reference         IRS               Issued      Projected      Report Title and Recommendation Summary
 Number        Management                      Completion    (F = Finding Number (No.), R = Recommendation No.,
                Challenge                         Date                          P = Plan No.)
                  Area
2011-41-035     Recovery Act         March                  Administration of the First-Time Homebuyer Credit
                                     2011                   Indicates a Need for Improved Controls Over
                                                            Refundable Credits

                                                04/15/12    F-2, R-1, P-1. Develop a method similar to that used by
                                                            TIGTA to identify improper claims for purchases from
                                                            related persons and conduct examinations as appropriate
                                                            to ensure that the Credits are recovered.
                                                04/15/12    F-3, R-1, P-1. Perform a review of the claims with invalid
                                                            addresses that TIGTA identified and correspond with
                                                            taxpayers in order to validate the home purchases.
                                                04/15/12    F-4, R-1, P-1. Modify the programming for the filter to
                                                            identify taxpayers who did not purchase a home so that it
                                                            identifies all claims meeting the specified criteria.
                                                04/15/12    F-5, R-1, P-1. Identify those claims for which valid
                                                            acquisition dates were not supplied and initiate post-
                                                            refund examinations (including the use of soft notices) to
                                                            ensure that refunds for the invalid claims are recovered.
2011-30-039    Human Capital        May 2011                Challenges Remain to Balance Revenue Officer
                                                            Staffing With Attrition and Workload Demands

                                                04/15/12    F-1, R-1, P-1. Establish rules for optimizing staffing levels
                                                            for Revenue Officers to address Collection’s potentially
                                                            collectible inventory.

2011-20-046   Security of the IRS   May 2011                Access Controls for the Automated Insolvency
                                                            System Need Improvement

                                                01/15/13    F-1, R-1, P-1. Identify incompatible duties and implement
                                                            policies to segregate those duties; issue a memorandum
                                                            to program managers requiring them to adhere to the new
                                                            policy when assigning duties and approving Automated
                                                            Insolvency System (AIS) access privileges; and designate
                                                            a limited number of employees to perform the User
                                                            Administrator duties.
                                                06/15/12    F-1, R-3, P-1. Define and document user requirements for
                                                            the AIS users based on employee job functions and
                                                            position descriptions.
                                                06/15/12    F-1, R-4, P-1. Create and implement a role-based access
                                                            control scheme for the AIS based on the documented user
                                                            requirements defined by the Directors, and remove the
                                                            User Administrator privilege from the Developer privilege
                                                            level.
                                                06/15/12    F-3, R-1, P-1. Submit a work request for the AIS to be
                                                            configured to report users’ changes to cases using the
                                                            Proof of Claim, Letter, Payment Plan, Attorney/Trustee
                                                            Information, and Refund screens.




                                                                   October 1, 2011 – March 31, 2012               75
                                                      TIGTA SEMIANNUAL REPORT TO CONGRESS



     Reference         IRS                Issued      Projected      Report Title and Recommendation Summary
      Number        Management                       Completion    (F = Finding Number (No.), R = Recommendation No.,
                     Challenge                          Date                          P = Plan No.)
                       Area
     2011-40-058   Providing Quality     July 2011                Taxpayers Do Not Always Receive Quality Responses
                   Taxpayer Service                               When Corresponding About Tax Issues

                                                      01/15/13    F-1, R-3, P-1. Complete the study of the interim letters to
                                                                  ensure that they: are strategically timed; alert taxpayers of
                                                                  delays and provide taxpayers with an accurate status and
                                                                  time period for case resolution; provide taxpayers with
                                                                  sufficient information to deter them from using other
                                                                  channels to contact the IRS regarding their case; and are
                                                                  clear and concise.
     2011-10-075    Erroneous and         August                  Controls Over the Purchase Card Program Were Not
                       Improper            2011                   Effective in Ensuring Appropriate Use
                    Payments and
                        Credits                       06/15/12    F-4, R-1, P-1. Review the current span of control and
                                                                  collaborate with the Business Organizations to identify
                                                                  relevant factors in support of their program activities to
                                                                  develop policy on span of control.
     2011-30-084       Taxpayer          September                Additional Steps Are Needed to Better Ensure Audits
                      Compliance           2011                   Are Expanded to Prior and/or Subsequent Year
                       Initiatives                                Returns When Substantial Taxes May Be Owed

                                                      05/15/12    F-1, R-2, P-1. Provide information to tax compliance
                                                                  officers that focus on improvement in the use of the IRS’s
                                                                  automated information systems to enhance the quality of
                                                                  their required filing checks.
     2011-10-098   Security of the IRS   September                The IRS Adequately Prepared for and Responded to
                                           2011                   the Austin Incident

                                                      10/15/12    F-1, R-1, P-1. Ensure that lessons learned relative to the
                                                                  Business Resumption Plans are applied to the
                                                                  development of the new continuity plans.
                                                      08/15/12    F-2, R-1, P-1. Ensure that the lessons learned document
                                                                  and the Incident Management Plan template are updated
                                                                  to reflect the required provisions that emergency
                                                                  procurements include compliance with the Federal
                                                                  Acquisition Regulation and other applicable procurement
                                                                  procedures and policies, including required security
                                                                  provisions.
     2011-10-107    Human Capital        September                The Administration of Recruitment and Retention
                                           2011                   Incentives Has Improved, but Additional Actions
                                                                  Should Be Taken

                                                      12/15/12    F-2, R-1, P-1. Develop a methodology to assess the
                                                                  impact of the use of recruitment and retention incentives in
                                                                  helping IRS management meet long-term workforce
                                                                  planning goals.




76    October 1, 2011 – March 31, 2012
        TIGTA SEMIANNUAL REPORT TO CONGRESS




Reference         IRS                Issued      Projected      Report Title and Recommendation Summary
 Number        Management                       Completion    (F = Finding Number (No.), R = Recommendation No.,
                Challenge                          Date                          P = Plan No.)
                  Area
2011-20-111   Security of the IRS   September                Continued Centralization of the Windows Environment
                                      2011                   Would Improve Administration and Security
                                                             Efficiencies

                                                 07/01/12    F-1, R-1, P-1. Establish an enterprise-wide Active
                                                             Directory governing body that finalizes and enforces IRS
                                                             Activity Directory forest design criteria; develop standards;
                                                             oversee trusts; and ensure that unauthorized forests or
                                                             domains are not implemented in the IRS.
                                                 11/01/12    F-1, R-2, P-1. Ensure that the planned shutdown of the
                                                             Business Systems Modernization forest is completed once
                                                             the Systems, Applications, and Products Secure Network
                                                             Communications solution is in place.
                                                 05/01/13    F-2, R-1, P-1. Ensure that standards and processes are
                                                             developed and implemented enterprise-wide to prevent
                                                             servers and workstations from being connected to the
                                                             network without the proper authorization and required
                                                             compliance documentation.
                                                 10/02/12    F-2, R-2, P-1. Ensure that scanning tools are used to
                                                             locate unauthorized servers, workstations, and domains
                                                             on the IRS network, and adequate procedures are
                                                             developed and implemented to ensure that they are
                                                             removed.
2011-30-112       Taxpayer          September                Reducing the Processing Time Between Balance Due
                 Compliance           2011                   Notices Could Increase Collections
                  Initiatives
                                                 01/15/13    F-1, R-1, P-1. Consider reducing the time between each
                                                             notice by seven days.
                                                 01/15/13    F-2, R-1, P-1. Consider establishing a business rule to
                                                             address taxpayers with multiple balance due modules
                                                             entering the notice stream at the same time.

2011-40-115     Implementing        September                Affordable Care Act: The Number of Taxpayers Filing
               Major Tax Laws         2011                   Tanning Excise Tax Returns Is Lower Than Expected
                  Changes
                                                 06/15/12    F-1, R-1, P-1. Perform further analyses of the data
                                                             sources used, including the records with incomplete
                                                             address information, and determine whether a large
                                                             portion of tanning businesses was not identified.
                                                 06/15/12    F-1, R-2, P-1. Monitor the results from the notices sent to
                                                             taxpayers who could potentially owe the tanning tax and, if
                                                             results warrant, consider obtaining additional data sources
                                                             for compliance use.
2011-20-127    Modernization of     September                The Customer Account Data Engine 2 Program
                  the IRS             2011                   Management Office Implemented Systems
                                                             Development Guidelines; However, Process
                                                             Improvements Are Needed to Address Inconsistencies

                                                 02/01/13    F-1, R-2, P-1. Ensure that the IRM includes detailed
                                                             instructions on how to develop a Program-level test plan.




                                                                    October 1, 2011 – March 31, 2012               77
                                                  TIGTA SEMIANNUAL REPORT TO CONGRESS



                            Other Statistical Reports
                The Inspector General Act of 1978 requires Inspectors General
                                     to address the following issues:

                               Issue                                         Result for TIGTA

       Access to Information
                                                               As of March 31, 2012, there were no
       Report unreasonable refusals of information available   instances where information or assistance
       to the agency that relate to programs and operations    requested by the Office of Audit was refused.
       for which the Inspector General has responsibilities.

       Disputed Audit Recommendations                          As of March 31, 2012, there was one instance
                                                               where significant recommendations were
       Provide information on significant management
                                                               disputed: Designated Payment Codes Are
       decisions in response to audit recommendations with
                                                               Inaccurate and Ineffective
       which the Inspector General disagrees.
                                                               (Reference No. 2012-30-026)

       Revised Management Decisions
       Provide a description and explanation of the reasons    As of March 31, 2012, no significant
       for any significant revised management decisions        management decisions were revised.
       made during the reporting period.

       Audit Reports Issued in the Prior Reporting
       Period With No Management Response
                                                               As of March 31, 2012, there were no prior
       Provide a summary of each audit report issued
                                                               reports where management’s response was
       before the beginning of the current reporting period
                                                               not received.
       for which no management response has been
       received by the end of the current reporting period.

       Review of Legislation and Regulations
                                                               TIGTA’s Office of Chief Counsel reviewed 266
       Review existing and proposed legislation and
                                                               proposed regulations and legislative requests
       regulations, and make recommendations concerning
                                                               during this reporting period.
       the impact of such legislation or regulations.




78   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



                                   Appendix II
                      Audit Products
              October 1, 2011 - March 31, 2012
                                      Audit Products
Reference
 Number                                           Report Title
              October 2011
              N/A
              November 2011
              Internal Revenue Service Diversity Demographics Compare Favorably With Other
2012-10-006
              Federal Agencies’ Senior Executive Service Ranks
              Revenue Officers Took Appropriate Levy Actions but Face Challenges and Delays
2012-30-007
              Bringing Taxpayers Into Compliance
              December 2011
2012-1C-002   Contractor Financial Risk Assessment
2012-1C-003   Contractor’s Fiscal Year 2007 Incurred Cost Proposal (Questioned Costs: $15,732)
              Follow-Up Review on Questioned Intercompany Work Orders Costs and Other Direct
2012-1C-004
              Costs
2012-1C-005   Pre-Award Accounting System Survey
              Eliminating the Automatic Mailing of Tax Packages Achieved Significant Savings,
2012-40-008   Although Some Taxpayers Were Burdened (Reliability of Information: $2,078,618 in
              overestimated printing and postage savings for mailing tax packages)
              More Tax Return Preparers Are Filing Electronically, but Better Controls Are Needed
2012-40-010
              to Ensure All Are Complying With the New Preparer Regulations
              Affordable Care Act: The Office of Appeals Planning Efforts for the Health Care
2012-13-009
              Reform Legislation
              January 2012
2012-40-001   Analysis of Internal Revenue Service Employees’ Use of Tax Preparation Assistance
              Procedures Are Needed to Improve the Accounting and Monitoring of Restitution
2012-30-012
              Payments to Prevent Erroneous Refunds
2012-30-011   Opportunities Exist to Identify More Taxpayers Who Underreport Retirement Income
              Independent Attestation Review of the Internal Revenue Service’s Fiscal Year 2011
2012-10-018
              Annual Accounting of Drug Control Funds and Related Performance
              February 2012
              The Internal Revenue Service Disallowed Erroneous First-Time Homebuyer Credits
              Totaling $1.6 Billion; However, Its Examination Resources Could Have Been Used
2012-41-013   More Effectively (Funds Put to Better Use: $114,954,194; Taxpayer Burden: $12,808
              taxpayers impacted; Taxpayer Rights and Entitlements: $285,338 and 477 taxpayers
              impacted)
              Criminal Investigation Can Take Steps to Strengthen Oversight of Its Undercover
2012-30-014
              Operations
              Procedures Need to Be Updated to Ensure Proper Determinations of Tax Relief for
2012-40-015
              Taxpayers Affected by Disasters (Reliability of Information: 597,513 taxpayer accounts




                                                             October 1, 2011 – March 31, 2012          79
                                                 TIGTA SEMIANNUAL REPORT TO CONGRESS



                    with an erroneous disaster relief indicator)
                    Improvements Are Needed to Ensure the Business Master File Case Creation Nonfiler
     2012-30-020
                    Identification Process Is Working Effectively
     2012-1C-016    Fiscal Year 2005 Incurred Cost Audit, Federal Sector – Civil Home Office
     2012-1C-017    Fiscal Year 2006 Incurred Costs
     2012-1C-022    Pre-Award Accounting System Audit
     2012-1C-023    Pre-Award Accounting System Review
     2012-1C-024    Independent Audit of Contractor’s Pre-Award Accounting System
     2012-1C-025    Information Technology System General Internal Controls
                    The Volunteer Program Management Information System Has Improved, but Better
     2012-40-021
                    Controls Are Needed to Ensure Data Reliability
                     March 2012
                    The Internal Revenue Service Is Not in Compliance With All Improper Payments
     2012-40-028
                    Elimination and Recovery Act Requirements
                    The Computer Security Incident Response Center Is Effectively Performing Most of Its
     2012-20-019
                    Responsibilities, but Further Improvements Are Needed
                    Final Incurred Cost Proposal for Fiscal Year Ending April 1, 2005 (Questioned Costs:
     2012-1C-032
                    $7,416,602)
                    Designated Payment Codes Are Inaccurate and Ineffective (Reliability of Information:
     2012-30-026    676,593 taxpayer payments with no Designated Payment Code and 70,213 taxpayer
                    payments with an inaccurate Designated Payment Code)
                    Actions Can Be Taken to Reinforce the Importance of Recognizing and Investigating
     2012-30-030
                    Fraud Indicators During Field Audits (Increased Revenue: $98,500,000)
                    Appropriate Actions Were Taken to Identify Thousands of Organizations Whose Tax-
                    Exempt Status Had Been Automatically Revoked, but Improvements Are Needed
                    (Reliability of Information: 15,701 tax-exempt organizations excluded from the
     2012-10-027    automatic revocation process, 25 Black Lung Trusts excluded from the automatic
                    revocation process, 495 tax-exempt organizations with incomplete address
                    information, and 13 tax-exempt organizations with inaccurate return filing
                    requirements; Taxpayer Burden: 279,593 taxpayers impacted)
                    Virtual Server Technology Has Been Successfully Implemented, but Additional Actions
     2012-20-029    Are Needed to Further Reduce the Number of Servers and Increase Savings (Funds
                    Put to Better Use: $7,727,650)
                    Citibank Purchase Card and Fleet Card Rebates Were Maximized and Are Now
                    Properly Allocated (Funds Put to Better Use: $1,009,822; Reliability of Information:
     2012-10-031
                    $3,696,450 Purchase and Fleet Card rebate amounts that could not be independently
                    validated)
                    Increasing Requests for Offers in Compromise Have Created Inventory Backlogs and
     2012-30-033
                    Delayed Responses to Taxpayers (Taxpayer Burden: 10,221 taxpayers impacted)
     2012-40-036    Interim Results of the 2012 Filing Season




80   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



                                        Appendix III
      TIGTA’s Statutory Reporting Requirements
TIGTA issued two audit reports required by statute dealing with the adequacy and
security of IRS technology during this reporting period. In FY 2012, TIGTA will
complete its 14th round of statutory reviews that are required annually by the IRS
Restructuring and Reform Act of 1998 (RRA 98). It will also complete its annual review
of the Federal Financial Management Improvement Act (FFMIA) of 1996, and its annual
review of the Office of National Drug Control Policy (ONDCP) Detailed Accounting
Submission and Assertions. The following table reflects the FY 2012 statutory reviews.

      Reference to                    Explanation of the                    Comments/TIGTA Audit
   Statutory Coverage                     Provision                               Status

  Enforcement Statistics          Requires TIGTA to evaluate the          Audit fieldwork in progress.
                                  IRS’s compliance with restrictions
  I.R.C.                          under RRA 98 § 1204 on the use
  Section (§) 7803 (d)(1)(A)(i)   of enforcement statistics to
                                  evaluate IRS employees.




  Restrictions on Directly        Requires TIGTA to evaluate the          Audit fieldwork in progress.
  Contacting Taxpayers            IRS’s compliance with restrictions
                                  under I.R.C. § 7521 on directly
  I.R.C. § 7803(d)(1)(A)(ii)      contacting taxpayers who have
                                  indicated they prefer their
                                  representatives be contacted.




  Filing of a Notice of Lien      Requires TIGTA to evaluate the          Draft report issued in March 2012.
                                  IRS’s compliance with required
  I.R.C. § 7803(d)(1)(A)(iii)     procedures under I.R.C. § 6320
                                  upon the filing of a notice of lien.




                                                                         October 1, 2011 – March 31, 2012      81
                                                       TIGTA SEMIANNUAL REPORT TO CONGRESS



            Reference to                      Explanation of the                  Comments/TIGTA Audit
         Statutory Coverage                       Provision                             Status

        Extensions of the Statute of      Requires TIGTA to include             Audit fieldwork in progress.
        Limitations for Assessment        information regarding extensions
        of Tax                            of the statute of limitations for
                                          assessment of tax under
        I.R.C. § 7803(d)(1)(C)            I.R.C. § 6501 and the provision of
                                          notice to taxpayers regarding the
        I.R.C. § 6501(c)(4)(B)            right to refuse or limit the
                                          extension to particular issues or a
                                          particular period of time.




        Levies                            Requires TIGTA to evaluate the        Audit planned – not yet started.
                                          IRS’s compliance with required
        I.R.C. § 7803(d)(1)(A)(iv)        procedures under I.R.C. § 6330
                                          regarding levies.




        Collection Due Process            Requires TIGTA to evaluate the        Audit fieldwork in progress.
                                          IRS’s compliance with required
        I.R.C. § 7803(d)(1)(A)(iii) and   procedures under I.R.C. §§ 6320
        (iv)                              and 6330 regarding taxpayers’
                                          rights to appeal lien or levy
                                          actions.



        Seizures                          Requires TIGTA to evaluate the        Audit in report writing phase.
                                          IRS’s compliance with required
        I.R.C. § 7803(d)(1)(A)(iv)        procedures under I.R.C. §§ 6330
                                          through 6344 when conducting
                                          seizures.




        Taxpayer Designations –           An evaluation of the IRS’s            Audit in report writing phase.
        Illegal Tax Protester             compliance with restrictions under
        Designation and Nonfiler          RRA 98 § 3707 on designation of
        Designation                       taxpayers.

        I.R.C. § 7803(d)(1)(A)(v)




82   October 1, 2011 – March 31, 2012
   TIGTA SEMIANNUAL REPORT TO CONGRESS



    Reference to                    Explanation of the                    Comments/TIGTA Audit
 Statutory Coverage                     Provision                               Status

Disclosure of Collection        Requires TIGTA to review and            Audit planned – not yet started.
Activities With Respect to      certify whether the IRS is
Joint Returns                   complying with I.R.C. § 6103(e)
                                (8) to disclose information to an
I.R.C. § 7803(d)(1)(B)          individual filing a joint return on
                                collection activity involving the
I.R.C. § 6103(e)(8)             other individual filing the return.




Taxpayer Complaints             Requires TIGTA to include in each       Statistical results on the number of
                                of its Semiannual Reports to            taxpayer complaints received are
I.R.C. § 7803(d)(2)(A)          Congress the number of taxpayer         shown on page 67.
                                complaints received and the
                                number of employee misconduct
                                and taxpayer abuse allegations
                                received by IRS or TIGTA from
                                taxpayers, IRS employees and
                                other sources.




Administrative or Civil         Requires TIGTA to include               Draft report issued in March 2012.
Actions With Respect to the     information regarding any
Fair Tax Collection Practices   administrative or civil actions with
Act of 1996                     respect to violations of the fair
                                debt collection provision of I.R.C.
I.R.C. § 7803(d)(1)(G)          § 6304, including a summary of
                                such actions, and any resulting
I.R.C. § 6304                   judgments or awards granted.

RRA 98 § 3466



Denial of Requests for          Requires TIGTA to include               Audit fieldwork in progress.
Information                     information regarding improper
                                denial of requests for information
I.R.C. § 7803(d)(1)(F)          from the IRS, based on a
                                statistically valid sample of the
I.R.C. § 7803(d)(3)(A)          total number of determinations
                                made by the IRS to deny written
                                requests to disclose information to
                                taxpayers on the basis of I.R.C.
                                § 6103 or 5 U.S.C. § 552(b)(7).




                                                                       October 1, 2011 – March 31, 2012        83
                                                       TIGTA SEMIANNUAL REPORT TO CONGRESS



            Reference to                       Explanation of the                 Comments/TIGTA Audit
         Statutory Coverage                        Provision                            Status

        Adequacy and Security of           Requires TIGTA to evaluate the       Information Technology Reviews:
        the Technology of the IRS          IRS’s adequacy and security of its   Ref. No. 2012-20-029, March 2012
                                           technology.
        I.R.C. § 7803(d)(1)(D)                                                  Security Reviews:
                                                                                Ref. No. 2012-20-019, March 2012




        Federal Financial                  Requires TIGTA to evaluate the       Audit fieldwork in progress.
        Management Improvement             financial management systems to
        Act of 1996 (FFMIA)                ensure compliance with Federal
                                           requirements or the establishment
        31 U.S.C. § 3512                   of a remediation plan with
                                           resources, remedies, and
                                           intermediate target dates to bring
                                           the IRS into substantial
                                           compliance.




        Office of National Drug            Requires TIGTA to authenticate       Ref. No. 2012-10-018, January 2012
        Control Policy (ONDCP)             the IRS’s ONDCP detailed             Nothing came to TIGTA’s attention that
        Detailed Accounting                accounting submission and            caused TIGTA to believe that the
        Submission and Assertions          assertions.                          assertions in the Detailed Accounting
                                                                                Submission and Performance
        National Drug Enforcement                                               Summary Report were not
        Policy 21 U.S.C. § 1704(d) and                                          appropriately presented in all material
        the Office of National Drug                                             aspects in accordance with ONDCP-
        Control Policy Circular entitled                                        established criteria. The IRS reported
        Drug Control Accounting,                                                that it expended $66.5 million on
        dated May 1, 2007.                                                      ONDCP-related activities and
                                                                                completed 927 ONDCP-related
                                                                                investigations in FY 2011. The IRS
                                                                                also reported that it participated in 435
                                                                                ONDCP-related cases that resulted in
                                                                                convictions, with an 88.1 percent
                                                                                conviction rate.




84   October 1, 2011 – March 31, 2012
   TIGTA SEMIANNUAL REPORT TO CONGRESS



    Reference to               Explanation of the              Comments/TIGTA Audit
 Statutory Coverage                Provision                         Status

Improper Payments          Requires TIGTA to assess the      Ref. No. 2012-40-028, March 2012
Elimination and Recovery   IRS’s compliance with improper    The methodology that the IRS uses to
Act of 2010 (IPERA)        payment requirements.             estimate the Earned Income Tax
                                                             Credit (EITC) improper payment rate
31 U.S.C. § 3321                                             results in a reasonable estimate of
                                                             EITC overclaims. However, the IRS
                                                             did not comply with all of the improper
                                                             payment requirements included in the
                                                             IPERA.

                                                             The IRS has not established annual
                                                             EITC improper payment reduction
                                                             targets and has not computed a gross
                                                             estimate of EITC improper payments,
                                                             as the estimate does not include
                                                             underpayments. An underpayment
                                                             results when an EITC payment is
                                                             made in an amount less than what an
                                                             individual is entitled to receive.

                                                             The IRS has plans in place to establish
                                                             EITC reduction targets and is exploring
                                                             the feasibility of computing an
                                                             improper payment estimate for EITC
                                                             underpayments.




                                                            October 1, 2011 – March 31, 2012           85
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




86   October 1, 2011 – March 31, 2012
       TIGTA SEMIANNUAL REPORT TO CONGRESS



                                     Appendix IV
                          Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS
employee if there is a final administrative or judicial determination that, in the performance of
official duties, such employee committed any misconduct violations outlined below. Such
termination shall be a removal for cause on charges of misconduct.

Misconduct violations include:

   •    Willfully failing to obtain the required approval signatures on documents authorizing the
        seizure of a taxpayer’s home, personal belongings, or business assets;
   •    Providing a false statement under oath with respect to a material matter involving a
        taxpayer or taxpayer representative;
   •    Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
        IRS, any right under the Constitution of the United States, or any civil right established
        under Title VI or VII of the Civil Rights Act of 1964; Title IX of the Education
        Amendments of 1972; Age Discrimination in Employment Act of 1967; Age
        Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation Act of 1973; or Title I
        of the Americans with Disabilities Act of 1990;
   •    Falsifying or destroying documents to conceal mistakes made by any employee with
        respect to a matter involving a taxpayer or taxpayer representative;
   •    Committing assault or battery on a taxpayer, taxpayer representative, or other employee
        of the IRS, but only if there is a criminal conviction or a final judgment by a court in a civil
        case, with respect to the assault or battery;
   •    Violating the Internal Revenue Code of 1986, as amended (the Code), the Department
        of the Treasury regulations, or policies of the IRS (including the Internal Revenue
        Manual) for the purpose of retaliating against or harassing a taxpayer, taxpayer
        representative, or other employee of the IRS;
   •    Willfully misusing provisions of § 6103 of the Code for the purpose of concealing
        information from a congressional inquiry;
   •    Willfully failing to file any return of tax required under the Code on or before the date
        prescribed therefore (including any extensions), unless such failure is due to reasonable
        cause and not to willful neglect;
   •    Willfully understating Federal tax liability, unless such understatement is due to
        reasonable cause and not to willful neglect; and
   •    Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her
sole discretion, may establish a procedure that will be used to decide whether an individual
should be referred to the Commissioner for determination. Any mitigation determination by the
Commissioner in these matters may not be appealed in any administrative or judicial
proceeding.




                                                                October 1, 2011 – March 31, 2012           87
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




88   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



                                 Appendix V
           Implementing Section 989C of the
          Dodd-Frank Wall Street Reform and
               Consumer Protection Act
        Inspector General Peer Review Activity
        October 1, 2011 Through March 31, 2012
Last Peer Review Conducted on TIGTA’s Office of Investigations

As part of the three-year cycle of independent peer reviews, on September 12, 2011,
Social Security, Office of the Inspector General, began its review of TIGTA’s Office of
Investigations. The review was completed November 4, 2011, and stated:

      In our opinion, the system of internal safeguards and management
      procedures for the investigative function of the TIGTA, in effect for the
      period ending on June 30, 2011, complies with the quality standards
      established by the Council of the Inspectors General on Integrity and
      Efficiency, the Quality Standards of Investigations, and any applicable
      Attorney General’s Guidelines. These safeguards and procedures provide
      reasonable assurance of conforming to professional standards in the
      conduct of its investigations.




                                                       October 1, 2011 – March 31, 2012   89
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




90   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



                              Appendix VI
              Data Tables Provided by the IRS
The memorandum copied below is the IRS’s transmittal to TIGTA. The tables that
follow the memorandum contain information that the IRS provided to TIGTA and consist
of IRS employee misconduct reports from the IRS Automated Labor and Employee
Relations Tracking System (ALERTS) for the period from October 1, 2011 through
March 31, 2012. Also, data concerning substantiated RRA 98 §1203 allegations for the
same period are included. IRS management conducted inquiries into the cases
reflected in these tables.




                                                    October 1, 2011 – March 31, 2012   91
                                                    TIGTA SEMIANNUAL REPORT TO CONGRESS



        Reports of Employee Misconduct for the Period
           October 1, 2011 through March 31, 2012
               Summary by Disposition Groups
                 (Tables Provided by the IRS)
              Disposition              TIGTA        Administrative   Employee        Background       Total
                                   Investigations      Cases         Tax Matter     Investigations
                                                                       Cases
      Removal                                  37               61              6                 4      108
      Separation of Probationary
      Employees                                 2               57              3               24        86
      Separation of Temporary
      Employees                                                  2                                2            4
      Resignation/Retirement                  51               89             37                  7      184
      Suspensions                            128              249             92                  2      471
      Reprimands                             123              376            540                12     1,051
      Counseling                               41             206            892                22     1,161
      Alternative Discipline                   31               63            31                  2      127
      Clearance                                80             133             10                         223
      Closed Without Action                  163              201            105                58       527
      Closed Without Action
      (Caution Statement)                    135              158            159                78       530
      Forwarded to TIGTA                                       16              0                          17
      No Action on Appeal                                                      0                           1
      Suspended – Waiting
      Supplemental                              2                                                              2
      Termination for
      Abandonment of Position                                   10                                        10
      Termination for Other
      Than Job Abandonment                                       3                                             3
      Case Suspended Pending
      Employee Return to Duty                                    1              0                              2
      Prosecution Pending for
      TIGTA Report of
      Investigation (ROI)                       9                                                              9
      Total                                  802             1,625         1,878*              211     4,516

     Notes:
      *Columns containing numbers of two or fewer and protected by I.R.C. Section 6103 are annotated with a 0.

     Source: Automated Labor and Employee Relations Tracking System (ALERTS)
     This report is being produced in accordance with 26 U.S.C. 7803(d)(2) and §4(a)2 of Treasury Delegation
     Order 115-01, January 14, 1999
     Extract Date: Monday, April 02, 2012              Report ID = T1R3a




92    October 1, 2011 – March 31, 2012
         TIGTA SEMIANNUAL REPORT TO CONGRESS



      Reports of Employee Misconduct for the Period
         October 1, 2011 through March 31, 2012
                    National Summary
               (Tables Provided by the IRS)

                                                                Cases Closed
                                    Conduct
      Inventory       Opening                                                                 Closing
                                     Cases                                        Non-
      Case Type      Inventory                    Conduct                                    Inventory
                                    Received                     Duplicates     Conduct
                                                   Issues
                                                                                 Issues


 TIGTA
 Investigations
 ROI 93                     544            697          (802)             (4)          (0)          435

 Administrative
 Case 94                    546           1,673       (1,625)           (19)           (7)          568

 Employee Tax
 Compliance
 Case 95                    592           1,850       (1,878)           (26)           (0)          538

 Background
 Investigations 96          142            151          (211)             (1)          (0)            81

 Total                     1,824          4,371       (4,516)           (50)           (7)        1,622


Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 U.S.C. 7803(d)(2) and §4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999
Extract Date: Monday, April 02, 2012             Report ID = T1R1




 93
    TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an
 investigation into alleged misconduct and referred an ROI to IRS for appropriate action.
 94
    Administrative Case - Any matter involving an employee in which management conducted an inquiry
 into alleged misconduct.
 95
    Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax
 Compliance program which becomes a matter of official interest.
 96
    Background Investigation - Any matter involving a National Background Information Center
 investigation into an employee’s background that is referred to management for appropriate action.



                                                                  October 1, 2011 – March 31, 2012         93
                                                    TIGTA SEMIANNUAL REPORT TO CONGRESS



                           Summary of Substantiated
                         I.R.C. Section 1203 Allegations
                      Recorded in ALERTS for the Periods
                     October 1, 2011 through March 31, 2012
                          (Tables Provided by the IRS)

                                                                     Removed        Penalty          In
                                      Resigned/      Probation
§ 1203 Violation       Removals                                      On Other      Mitigated     Personnel        Total
                                       Retired       Separation                         97
                                                                     Grounds                      Process

  Seizure Without
     Approval               0              0               0              0             0             0            0
 False Statement
   Under Oath               0              0               0              0             0             0            0
 Constitutional &
Civil Rights Issues         0              0               0              0             0             0            0
     Falsifying or
     Destroying
      Records               0              0               0              0             0             0            4

 Assault or Battery
                            0              0               0              0             0             0            0
     Retaliate or
      Harass                0              0               0              0             0             0            1

 Misuse of § 6103
                            0              0               0              0             0             0            0
 Failure to Timely
    File/ Under-
 statement of Tax
       Liability            8              8               0             17            50             36          119
 Threat to Audit for
  Personal Gain             0              0               0              0             0             0            1

        Total               9*             9*              0            19*            51*           37*          125


Notes:
  *Columns containing numbers of two or fewer and protected by I.R.C. Section 6103 are annotated with a 0.

Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review Board
records.
Extract Date: Monday, April 02, 2012


       97
         The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party
       appeal.




94    October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS



                Glossary of Acronyms

ACA                Patient Protection and Affordable Care Act

AIS                Automated Insolvency System

                   Automated Labor and Employee Relations Tracking
ALERTS
                   System

AUR                Automated Underreporter

CI                 Criminal Investigation

CICT               Criminal Intelligence and Counterterrorism
                   Council of the Inspectors General on Integrity and
CIGIE
                   Efficiency
CLC                Constitutional Common Law Court

COTR               Contracting Officer’s Technical Representative

CPE                Continuing Professional Education

CSIRC              Computer Security Incident Response Center

CY                 Calendar Year

DOL OIG            Department of Labor, Office of Inspector General

EDI                Equity, Diversity, and Inclusion

EITC               Earned Income Tax Credit

FFMIA              Federal Financial Management Improvement Act of 1996

FLETA              Federal Law Enforcement Training Accreditation

FTB                Franchise Tax Board

FTE                Full-time Equivalents



                                                 October 1, 2011 – March 31, 2012   95
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS




       FY                   Fiscal Year

       I&E                  Inspections and Evaluations

       IPERA                Improper Payments Elimination and Recovery Act of 2010

       IRA                  Individual Retirement Arrangement

       I.R.C.               Internal Revenue Code

       IRM                  Internal Revenue Manual

       IRS                  Internal Revenue Service

       IVES                 Income Verification Express Services

       NASBA                National Association of State Boards of Accountancy

       OA                   Office of Audit

       OFDP                 Office of Online Fraud Detection and Prevention

       OI                   Office of Investigation

       OIC                  Offer in Compromise

       ONDCP                Office of National Drug Control Policy

       PCIE                 President’s Council on Integrity and Efficiency

       PII                  Personally Identifiable Information

       PTIN                 Preparer Tax Identification Number

       RA                   Revenue Agent

       ROI                  Report of Investigation

       RRA 98               IRS Restructuring and Reform Act of 1998

       SES                  Senior Executive Service



96   October 1, 2011 – March 31, 2012
     TIGTA SEMIANNUAL REPORT TO CONGRESS




SSN                Social Security Number

TIGTA              Treasury Inspector General for Tax Administration

TINS               Threat Information Notification System
                   Threat Information and Critical Incident Response
TIRC
                   Initiative
TNT                Trinitrotoluene

TTY/TDD            Tele-Typewriter/Telecommunications Device

TY                 Tax Year

UNAX               Unauthorized Access

VoIP               Voice over Internet Protocol




                                                  October 1, 2011 – March 31, 2012   97
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS




98   October 1, 2011 – March 31, 2012
TIGTA SEMIANNUAL REPORT TO CONGRESS




                                      October 1, 2011 – March 31, 2012   99
